No. 19-_____
IN THE

Supreme Court of the United States
________________________________
JOHN M. PAZ,
v.

Petitioner,

DIRECTOR, DIVISION OF TAXATION,

Respondent.

_________________________________

On Petition For Writ of Certiorari to the
Superior Court of New Jersey, Appellate Division
_________________________________
PETITION FOR A WRIT OF CERTIORARI
_________________________________
Jerome B. Libin

Counsel of Record

Jeffrey A. Friedman
Eversheds Sutherland (US) LLP
700 Sixth Street, NW, Suite 700
Washington, DC 20001
(202) 383-0145
jeromelibin@eversheds-sutherland.com
Open Weaver Banks
Michael J. Hilkin
Eversheds Sutherland (US) LLP
1114 Avenue of the Americas
New York, NY 10036
Counsel for Petitioner

QUESTIONS PRESENTED
In Mobil Oil Corp v. Commissioner of Taxation of
Vermont, 445 U.S. 425, 444 (1980), this Court stated
that, for State income tax purposes, taxation by
allocation and taxation by apportionment are
“theoretically incommensurate.”
The questions presented are:
1. Whether it is constitutionally permissible for
the domiciliary State of a corporation engaged in a
multistate unitary business to allocate to itself for
taxation purposes the entire gain realized by the
corporation on the sale of all the assets of the unitary
business, given the fact that the corporation
apportioned the gain among over 20 States where the
business was conducted, in accordance with this
Court’s decisions in Mobil Oil Corp., supra; Container
Corp. of America v. Franchise Tax Board, 463 U.S.
159, 169 (1983); Allied-Signal, Inc. v. Director,
Division of Taxation, 504 U.S. 768 (1992), and
MeadWestvaco Corp. v. Illinois Department of
Revenue, 553 U.S. 16 (2008).
2. Whether a nonresident individual taxpayer, as
the sole shareholder of an S corporation conducting a
multistate unitary business, may be personally taxed
by the corporation’s domiciliary State on 100% of the
gain realized on the sale of all the assets of the
business, even though the same gain was taxed on an
apportioned basis by the other States where the
business was conducted and only 25% of the gain was
apportioned to the domiciliary State.

(i)

RELATED PROCEEDINGS
Supreme Court of New Jersey:

Paz v. Director, Division of Taxation, No. 082574
(Sept. 20, 2019)
Superior Court of New Jersey, Appellate Division:

Paz v. Director, Division of Taxation, No. A-445216T4 (Jan. 31, 2019)
Tax Court of New Jersey:

Xylem Dewatering Solutions, Inc., John M. Paz,
et al. v. Director, Division of Taxation,
Nos. 011704-2015, 000056-2016 and 000057-2016
(Apr. 10, 2017)

(ii)

TABLE OF CONTENTS
QUESTIONS PRESENTED ....................................... i
RELATED PROCEEDINGS ...................................... ii
TABLE OF CONTENTS ........................................... iii
TABLE OF AUTHORITIES ..................................... vi
PETITION FOR WRIT OF CERTIORARI .................1
OPINIONS BELOW ....................................................1
JURISDICTION ..........................................................1
STATUTES AND REGULATIONS INVOLVED .......1
STATEMENT OF THE CASE ....................................3
REASONS FOR GRANTING THE PETITION .......10

The Unitary Business Principle ..............13
A Sale of All the Assets of a Unitary
Business Produces Constitutionally
Apportionable Income ..............................14
The Decision Below Misapplied the
Unitary
Business
Principle
in
Choosing
Allocation
Over
Apportionment .........................................16

(iii)

The Significance of Mobil Oil Corp. v.
Commissioner of Taxation of Vermont ...22
Petitioner’s Exposure to Double
Taxation ...................................................24

States May Only Tax Income Earned
by Nonresident Individuals Within the
State .........................................................26
New Jersey’s Taxation of Petitioner
Oversteps New Jersey’s Taxing
Authority
and
Results
in
Extraterritorial Taxation ........................27
CONCLUSION ..........................................................29
APPENDIX
APPENDIX A: Paz v. Director, Division of
Taxation, 239 N.J. 382 (2019) (Order
denying certification dated September 20,
2019)................................................................1a
APPENDIX B: Paz v. Director, Division of
Taxation, 31 N.J. Tax 76 (N.J. Super., App.
Div. 2019) (Opinion dated January 31,
2019)................................................................2a
(iv)

APPENDIX C: Xylem Dewatering Solutions,
Inc., John M. Paz, et al. v. Director,
Division of Taxation, 30 N.J. Tax 41 (Tax
2017) (Corrected Opinion dated April 10,
2017)................................................................7a
APPENDIX D: N.J. Stat. Ann. § 54:10A-6.1
(2010) ............................................................43a

(v)

TABLE OF AUTHORITIES
CASES .................................................................. Page

ABB C-E Nuclear Power, Inc. v. Director of
Revenue,

215 S.W.3d 85 (Mo. 2007) ..............................15

Allied-Signal, Inc. v. Director, Division of
Taxation,

504 U.S. 768 (1992) ................................ passim

American States Insurance Co. v. Hamer,

352 Ill. App. 3d 521, 816 N.E.2d 659
(2004) ..............................................................15

ASARCO Inc. v. Idaho State Tax
Commission,

458 U.S. 307 (1982) ............................ 14, 15, 18

Canteen Corp. v. Commonwealth,

818 A.2d 594 (Pa. Commw. 2003) ..................15

CenturyTel, Inc. v. Department of Revenue,

353 Or. 316, 297 P.3d 1264 (2013) .................14

Comptroller of Treasury of Maryland v.
Wynne,

575 U.S. 542 (2015) ....................................3, 26

Container Corp. of America v. Franchise Tax
Board,

463 U.S. 159 (1983) ....................................8, 14

Ex. parte Kimberly-Clark Corp.,

95 So.3d 820 (Ala. Civ. App. 2012) ................21

Exxon Corp. v. Wisconsin Department of
Revenue,

447 U.S. 207 (1980) ........................................28
(vi)

F.W. Woolworth Co. v. Taxation and Revenue
Department of New Mexico,

458 U.S. 354 (1982) ........................................15

First Data Corp. v. Arizona Department of
Revenue,

233 Ariz. 405, 313 P.3d 548 (App. 2013) .......14

Glatfelter Pulpwood Co. v. Commonwealth,

619 Pa. 243, 61 A.3d 993 (2013).....................21

McKesson Water Prods. Co. v. Director,
Division of Taxation,

23 N.J. Tax 449 (2007) .....................................8

MeadWestvaco Corp. v. Illinois Department
of Revenue,
553 U.S. 16 (2008) .................................. passim
Mobil Oil Corp. v. Commissioner of Taxation
of Vermont,
445 U.S. 425 (1980) ................................ passim
Newell Window Furnishing, Inc. v. Johnson,

311 S.W.3d 441 (Tenn. App. 2008) ................14

Oklahoma Tax Comm’n v. Chickasaw Nation,

515 U.S. 450 (1995) ........................................27

Shaffer v. Carter,

252 U.S. 37 (1920) ..........................................26

Underwood Typewriter Co. v. Chamberlain,

254 U.S. 113 (1920) .......................................13

CONSTITUTIONAL PROVISIONS
U.S. Const., Art. I, § 8, cl. 3 ...................................1
U.S. Const., Amdt. 14, § 1 .....................................2
(vii)

STATUTES
26 U.S.C. § 1361 .....................................................3
28 U.S.C. § 1257(a) ................................................1
I.R.C. § 338(h)(10) ..............................................4, 7
N.J. Stat. Ann. § 54:10A-6.1.a ...........................6, 9
Cal. Rev. & Tax. § 25125(c) .................................18
Ill. Comp. Stat., ch. 35, § 5/1501(a)(1).................20
Ind. Code § 6-3-1-20 .............................................20
Iowa Code § 422.32(1)(b)(1) .................................20
Kan. Stat. Ann. § 79-3271(a) ...............................20
N.C. Gen. Stat. Ann. § 105-130.4(a)(1) ...............20
Pa. Stat. Ann., Tit. 72, § 7401 .......................18, 20
Tenn. Code Ann. § 67-4-2011(d) .................... 18-19
W. Va. Code Ann. § 11-24-3a(a)(2) ......................20
OTHER AUTHORITIES
Brief of Defendant, Paz v. Director, Division
of Taxation, 30 N.J. Tax 41 (Tax 2017) ........18
J. Hellerstein, W. Hellerstein & J. Swain,
State Taxation, (3d ed. 2001 & Supp.
2019-3) ...........................................................26
Potter, Section 338(h)(10) Elections of S
Corporations, Incremental Costs, and
Considerations Following Tax Reform,
45 Corp. Tax’n 3 (Nov./Dec. 2018) ..................4

(viii)

1
PETITION FOR WRIT OF CERTIORARI
John M. Paz respectfully petitions for a writ of
certiorari to review the judgment of the New Jersey
Superior Court, Appellate Division (“Appellate
Division”), in this case.
OPINIONS BELOW
The New Jersey Supreme Court order denying
petitioner’s petition for certification was entered on
September 20, 2019 and is reported at 239 N.J. 382,
217 A.3d 737. (App. 1a.) The opinion of the Appellate
Division is reported at 31 N.J. Tax 76. (App. 2a.) The
opinion of the Tax Court of New Jersey (“Tax Court”),
as corrected, is reported at 30 N.J. Tax 41. (App. 7a.)
JURISDICTION
The New Jersey Supreme Court order denying
review of the decision of the Appellate Division was
entered on September 20, 2019. On December 6,
2019, Justice Alito extended the time within which to
petition for certiorari through January 21, 2020. This
Court’s jurisdiction is invoked under 28 U.S.C. §
1257(a).
STATUTES AND REGULATIONS INVOLVED
U.S. Const., Art. I, § 8, cl. 3, provides:
The Congress shall have Power. . . [t]o regulate
commerce with foreign Nations, and among the
several States, and with the Indian Tribes. . . .

2
U.S. Const., Amdt. 14, § 1, provides:
No State shall…deprive any person of life,
liberty, or property, without due process of
law….
Relevant portions of the New Jersey taxing
statute are set forth at App. 43a.

3
STATEMENT OF THE CASE
A. Relevant Facts
Petitioner, a Pennsylvania resident, was the
owner and president of Godwin Pumps of America,
Inc. (“Godwin Pumps”), a corporation engaged in the
business of assembling, selling, renting, and servicing
industrial and contractor’s pumps throughout the
United States. Godwin Pumps had its commercial
domicile in New Jersey.
Over a period of 25 years, petitioner built Godwin
Pumps into a highly successful multistate business
operating in New Jersey and over 20 other States as
part of a single unitary business.1 By 2010, over 60%
of the real and tangible personal property of Godwin
Pumps and over 68% of its employees were located in
States other than New Jersey.
For both federal and state income tax purposes,
Godwin Pumps was an S corporation. It filed federal
and State income tax returns, but its income passed
through to its shareholders, who were directly subject
to tax on such income.2 Petitioner’s direct and
beneficial ownership of the corporation’s stock made

A “unitary business” is a business operated across state lines
that is characterized by functional integration, centralized
management, and economies of scale. Mobil Oil Corp. v. Comm’r
of Taxation of Vt., 445 U.S. 425, 438 (1980).
1

2 Under the Internal Revenue Code, a corporation with no more
than 100 shareholders may elect to be treated as an S
corporation rather than a C corporation if its shareholders
consent. 26 U.S.C. § 1361. For further explanation, see
Comptroller of Treasury of Md. v. Wynne, 575 U.S. 542 (2015).

4
him the sole shareholder of Godwin Pumps for federal
and New Jersey income tax purposes.
On August 3, 2010, petitioner sold all the stock of
Godwin Pumps to ITT Corporation and one of its
affiliates. For federal income tax purposes, petitioner
and the purchasers made a joint election under
Internal Revenue Code (“I.R.C.”) § 338(h)(10)). That
election, which was respected for New Jersey income
tax purposes, caused the stock sale to be treated as a
sale by Godwin Pumps of all the assets of the business
to the purchasers, followed by a distribution of the
sale proceeds from Godwin Pumps to petitioner in
complete liquidation of Godwin Pumps. Such an
election is frequently made in conjunction with the
sale of an entire business.3
Godwin Pumps filed a final short-year New
Jersey S corporation return for the period ending
August 3, 2010. It reported $357,290,215 of gain
realized on the deemed asset sale. It attributed
$48,842,984 of the gain to the sale of tangible assets
and $308,447,231 to the sale of goodwill. Godwin
3 Under a joint I.R.C. § 338(h)(10) election, the buyer is treated
as having purchased all the assets of the business at the price it
paid for the stock. The tax basis of the assets is then increased
by allocating the total price paid to the assets acquired. The
buyer is then allowed to claim appropriate depreciation and
amortization deductions with respect to the acquired assets by
reference to their increased tax basis, without having to make
an actual asset-by-asset purchase. Consequently, “it is common”
to structure the sale of a company as a stock sale with an
accompanying I.R.C. § 338(h)(10) election. See, e.g., Potter,
Section 338(h)(10) Elections of S Corporations, Incremental
Costs, and Considerations Following Tax Reform, 45 Corp. Tax’n
3, 4 (Nov./Dec. 2018).

5
Pumps also determined that under New Jersey’s
statutory method of formulary apportionment, 25% of
the gain should be apportioned to New Jersey.
Godwin Pumps applied the formulary apportionment
methods of the other States where it conducted
business to determine the amount of gain
apportionable to each of those States.
Because the Godwin Pumps S corporation income
flowed directly through to petitioner for New Jersey
income tax purposes, petitioner reported both an
apportioned share of the company’s operating income
for its final period and 25% of the gain from the asset
sale as New Jersey taxable income on his 2010 New
Jersey nonresident individual income tax return.
Petitioner paid approximately $10 million of New
Jersey individual income tax on the gain from the
asset sale (calculated using a somewhat higher
apportionment factor of 30% that was corrected on an
amended return).
Petitioner also filed nonresident individual tax
returns in over 20 States where Godwin Pumps
operated. In each of those States, petitioner reported
and paid tax on an apportioned share of the gain from
the asset sale. Petitioner paid a total of more than $9
million in income tax on the gain from the asset sale
to States other than New Jersey.4 As a result,

Petitioner paid over $9 million of nonresident income tax to the
following States: Arizona, California, Connecticut, Delaware,
Georgia, Illinois, Indiana, Kentucky, Maine, Maryland,
Massachusetts, Montana, New Hampshire, New York, North
Carolina, Ohio, Oregon, Rhode Island, South Carolina,
Tennessee, Texas, Virginia and West Virginia. Approximately
4

6
petitioner paid a combined amount of over $19 million
in State income tax on the gain from the sale of
Godwin Pumps.
As a Pennsylvania resident, petitioner separately
reported and paid income tax to that State for the
year 2010 on the entire amount of the gain from the
sale of Godwin Pumps, receiving a credit against his
Pennsylvania tax for the taxes he paid to the other
States.
B. Proceedings Below
In December 2015, the New Jersey Division of
Taxation (“Division”) issued an individual assessment
against petitioner for an additional $19,166,036 in tax
due for the year 2010. The Division did not challenge
petitioner’s apportionment of Godwin Pumps
operating income to New Jersey for that year. It did
assert, however, that New Jersey was entitled to tax
100% of the gain from the asset sale. The Division
contended that the income from the asset sale
constituted statutory “nonoperational income” under
N.J. Stat. Ann. § 54:10A-6.1.a.5 Because Godwin
3.5% of petitioner’s 2010 taxable income was attributable to the
operating income of Godwin Pumps.
5 N.J. Stat. Ann. § 54:10A-6.1.a (2010), provided in pertinent
part as follows:

“Operational income” subject to allocation to New Jersey
means income from tangible and intangible property if the
acquisition, management, and disposition of the property
constitute integral parts of the taxpayer’s regular trade or
business operations. . . . .
Income that a taxpayer
demonstrates with clear and convincing evidence is not
operational income is classified as nonoperational income,
and the nonoperational income of taxpayers is not subject to

7
Pumps had its principal place of management (i.e., its
commercial domicile) in New Jersey, the Division
claimed the right under the statute to tax the entire
gain.6
In January 2016, petitioner contested the
assessment in the Tax Court on both statutory and
constitutional grounds. Petitioner argued, inter alia,
that under the Due Process Clause and the Commerce
Clause of the Constitution, New Jersey could not
properly tax 100% of the gain realized on the asset
sale. The case was heard on cross-motions for
summary judgment.
The Tax Court ruled against petitioner in April
2017. It considered itself bound by its own prior
decision holding that a corporation’s gain from an
asset
sale
under
I.R.C.
§ 338(h)(10)
was
“nonoperational income” within the meaning of the

allocation but shall be specifically assigned; provided, that
100% of the nonoperational income of a taxpayer that has its
principal place from which the trade or business of the
taxpayer is directed or managed in this State shall be
specifically assigned to this State to the extent permitted
under the Constitution and statutes of the United States.
6 In issuing the assessment, the Division intended to allocate
100% of the $357 million gain from the asset sale to New Jersey.
As noted by the Tax Court, the Division “maintains that the
entirety of the deemed gain on sale was allocated to New Jersey.”
(App. 10a.) However, due to what appears to be an oversight or
computational error inconsistent with the Division’s position,
the Division did not allocate to New Jersey the $48,842,984 in
gain from the sale of tangible assets, and only allocated to New
Jersey the $308,447,231 in gain attributable to the sale of
goodwill.

8
applicable New Jersey taxing statute.7 Because the
prior decision had not addressed “the constitutional
issues implicated in the unitary business principle,”
however, the Tax Court recognized that it was
required to address those issues for the first time.8
(App. 39a.)
After citing MeadWestvaco Corp. v. Illinois
Department of Revenue, 553 U.S. 16 (2008), for
support that the business income of a unitary
business must be apportioned among the States
where the business is conducted, the Tax Court
restated its position that the income from the Godwin
Pumps asset sale was “nonoperational income” (also
referred to as “nonbusiness income”) within the
meaning of the New Jersey statute.9 (App. 40a.) The
McKesson Water Prods. Co. v. Director, Div. of Taxation, 23
N.J. Tax 449 (2007), aff’d, 408 N.J. Super. 213, 974 A.2d 443
(App. Div.), cert. denied, 200 N.J. 506, 983 A.2d 1113 (2009). In
McKesson, New Jersey was a nondomiciliary State seeking to
tax an apportioned share of the gain on a sale of all the assets of
a corporation in a § 338(h)(10) transaction. The court concluded
that the gain was attributable to “an extraordinary event in the
company’s history” and therefore did not constitute “operational
income” that was apportionable under the New Jersey taxing
statute. The court did not decide whether the business
conducted was a unitary business.
7

8 The unitary business principle has its underpinnings in the
Due Process Clause and the Commerce Clause. With respect to
State income taxation, it contemplates that income derived from,
or attributable to, a unitary business is to be apportioned among
the States where the business is conducted. Mobil Oil Corp.,
supra; Container Corp. of Am. v. Franchise Tax Bd., 463 U.S.
159 (1983).

New Jersey statutes use different terms to define several
concepts commonly used when considering the apportionment of
9

9
Tax Court then reached the surprising conclusion
that the State statutory definition controlled its
constitutional analysis:
The Constitution does not require that
nonbusiness income be apportioned among the
states. See Ala. Dep’t of Revenue v. KimberlyClark Corp., 95 So.3d. 820, 826 (Ala. Civ. App.
2012).
The income at issue arose from the deemed sale
of assets in connection with a complete
liquidation of the corporation. That income is
clearly
nonoperational
income
under
McKesson, by which precedent this court is
bound. There is no constitutional requirement
that such income be apportioned and it is
appropriately allocated to the domiciliary
state, New Jersey.
(App. 40a.)
The Tax Court thus upheld the allocation of 100%
of the gain to New Jersey even though no decision of
this Court has permitted a State to allocate to itself
100% of the gain from a sale of all the assets of a
unitary business, and even though that allocation

income for tax purposes.
What is commonly considered
“apportionment” is referred to as “allocation” in N.J. Stat. Ann.
§ 54:10A-6.1.a. What is commonly considered “allocation” is
referred to as “assignment.” N.J. Stat. Ann. § 54:10A-6.1.a. To
avoid confusion, this petition will refer to the more commonly
accepted terms “apportionment” and “allocation,” except when
quoting the New Jersey statute or opinions of the New Jersey
courts.

10
caused substantial multiple taxation of the gain
realized.
Petitioner appealed to the Appellate Division,
raising, inter alia, his constitutional arguments.10
With one judge concurring, the Appellate Division
affirmed the Tax Court per curiam, “substantially for
the reasons expressed” in the Tax Court’s opinion.
(App. 3a.) The Appellate Division did not undertake
a constitutional analysis of its own. The concurring
opinion recognized that petitioner “must endure the
consequences of being subjected to double taxation by
more than one state for the same asset gains,” as a
result of not requesting refunds from the States to
which he paid individual income tax on an
apportioned basis. (App. 6a.)
Petitioner then filed a Petition for Certification
with the Supreme Court of New Jersey, again raising
his constitutional arguments. That petition was
denied on September 20, 2019. (App. 1a.)
REASONS FOR GRANTING THE PETITION
This petition should be granted because this case
raises several fundamental issues regarding the
proper application of the unitary business principle to
state taxation of income earned in interstate
commerce.

10 The Tax Court decision below also addressed an assessment
against Xylem Dewatering Solutions, Inc. (successor to Godwin
Pumps) and certain trusts established by petitioner. (App. 10a11a.) The Tax Court set aside this assessment and New Jersey
did not appeal. That issue is no longer part of the case.

11
At issue are the proper tax treatment of gain
realized on a sale of all the assets of a corporation’s
unitary business in a single transaction and the
taxing authority of the domiciliary State in such
cases. This Court has not previously considered these
issues, and the States are divided on the proper tax
treatment of the gain in such cases. No State,
however, has gone as far as New Jersey has here,
concluding that, as the domiciliary State of the selling
corporation, it is constitutionally entitled to allocate
to itself 100% of the gain from the asset sale because
its taxing statute treats the gain as “nonoperational
income” that is not apportionable.
The decision below is in conflict with three
decisions of this Court. In Allied-Signal, Inc. v.
Director, Division of Taxation, 504 U.S. 768 (1992),
and MeadWestvaco, supra, this Court established
that, under the unitary business principle, gain
realized on the sale of an asset that is part of a unitary
business is constitutionally apportionable income.
That rule applies irrespective of the scope and
meaning of State taxing statutes. In Mobil Oil Corp.
v. Commissioner of Taxes Vermont, 445 U.S. 425
(1980), this Court established that it is not
constitutionally permissible for income earned by a
unitary business to be both apportionable to various
States and also allocable entirely to a single State.
Here, the assets in question are by definition part
of the unitary business because they are the unitary
business. The income realized from their sale was
apportioned among over 20 States where the business
was conducted. Yet, the courts below allowed the
same income to be allocated entirely to New Jersey,

12
producing both a direct conflict among the States and
substantial double taxation.
If this Court allows this case to stand, it would
indicate that a State statutory definition can set the
constitutional limitations on State taxation of unitary
business income. It would also indicate that income
can be allocated in its entirety to a single State
notwithstanding the fact that the same income has
been properly apportioned to numerous other States,
thereby ensuring multiple taxation of that income.
This case warrants review because it provides a
unique vehicle through which the Court can address
both of those fundamental issues.
This case also warrants review because it
presents a situation where one State has subjected a
nonresident individual taxpayer to tax on 100% of the
gain realized on the sale of all the assets of the
taxpayer’s business, even though that gain is
attributable in large part to activities conducted in
over 20 other States. Such an overreach results in
grossly unfair apportionment that is inconsistent
with what the Due Process Clause and the Commerce
Clause permit in the case of nonresident individual
taxpayers. This Court should review the case to
rectify the unconstitutional result upheld by the
courts below.

13
THE DECISION BELOW CONFLICTS WITH
DECISIONS OF THIS COURT INVOLVING
APPLICATION OF THE UNITARY BUSINESS
PRINCIPLE
The Unitary Business Principle
This Court developed the “unitary business
principle” to establish the scope of a state’s taxing
power under the Constitution with respect to business
activity conducted in interstate commerce. Although
it originally focused on the taxation of property and
capital, the concept was extended to income taxation
exactly 100 years ago.11
The unitary business
principle is derived from the Due Process and
Commerce Clauses and addresses what would
otherwise be a basic constitutional prohibition
against States taxing income earned beyond their
borders.
As previously noted, a “unitary business” is
characterized
by
functional
integration,
centralization of management, and economies of
scale. Mobil Oil Corp., supra, at 438. When a
multistate enterprise operates as a unitary business,
rather than as a group of separate businesses, the
income it generates in each State where it operates is
considered attributable in part to its activities in all
the States where the business is conducted. As a
result, when “a certain set of activities constitute[s] a
‘unitary business,’ a State must then apply a formula
Underwood Typewriter Co. v. Chamberlain, 254 U.S. 113
(1920). The full history of the unitary business principle is
discussed in Allied-Signal at 778-780 and MeadWestvaco at 2527.

11

14
apportioning the income of that business within and
without the State.” Container Corp., 463 U.S. at 169.
By contrast, if income is generated by a non-unitary
aspect of a taxpayer’s business that does not have any
connection with the activities carried on in the taxing
State, the State cannot tax that income at all. See,
e.g., ASARCO Inc. v. Idaho State Tax Comm’n, 458
U.S. 307, 325-329 (1982).
A Sale of All the Assets of a Unitary Business
Produces Constitutionally Apportionable
Income
This Court has not previously considered the
constitutionally proper tax treatment of income
realized from a sale of all the assets of a corporation’s
unitary business in a single transaction. In cases
where a State has sought to tax an apportioned part
of the gain in such a transaction, State courts have
reached conflicting results.
Courts
in
some
States
have
allowed
apportionment of the gain based on interpretations of
their own taxing statutes that call for the
apportionment of “business income.”12 Courts in
other States have concluded that no portion of the
gain may be taxed by the State because the gain

See, e.g., First Data Corp. v. Arizona Dept. of Revenue, 233
Ariz. 405, 313 P.3d 548 (App. 2013); CenturyTel, Inc. v.
Department of Revenue, 353 Or. 316, 297 P.3d 1264 (2013);
Newell Window Furnishing, Inc. v. Johnson, 311 S.W.3d 441
(Tenn. App. 2008).
12

15
represents nonapportionable “nonbusiness income”
under their statutes.13
This Court has considered two cases involving the
sale of specific assets owned by a corporation
operating a unitary business. In Allied-Signal, supra,
this Court held that the sale of a minority block of
stock in an unrelated company by a corporation
operating a unitary business did not produce income
that was constitutionally apportionable to New
Jersey because the asset sold was not a part of the
taxpayer’s unitary business being conducted there.
The Court bolstered its conclusion by referencing its
prior decisions in ASARCO, supra, and F.W.
Woolworth Co. v. Taxation and Revenue Department
of New Mexico, 458 U.S. 354 (1982), stating that in
those cases “we struck down a state attempt to
include in the apportionable tax base income not
derived from the unitary business.” 504 U.S. at 780.14

See, e.g., American States Ins. Co. v. Hamer, 352 Ill. App. 3d
521, 816 N.E.2d 659 (2004); ABB C-E Nuclear Power, Inc. v.
Director of Revenue, 215 S.W.3d 85 (Mo. 2007); Canteen Corp. v.
Commonwealth, 818 A.2d 594 (Pa. Commw. 2003), aff’d per
curiam, 578 Pa. 504, 854 A.2d 440 (2004).
13

In ASARCO, this Court acknowledged the conclusion of the
Idaho Supreme Court that the income in question was
apportionable “business income” within the meaning of the
Idaho taxing statute. Nevertheless, this Court held that,
because the income was derived from “discrete business
enterprises” that had nothing to do with the unitary business
activities conducted by the taxpayer in Idaho, the income was
not constitutionally apportionable income and Idaho was
therefore not entitled to tax any portion of it. A similar result
was reached in Woolworth.

14

16
In MeadWestvaco, supra, this Court considered
the tax consequences of the sale of an entire line of
business by a corporation engaged in a unitary
business. Mead conducted its unitary business in
Illinois and other States, and Illinois claimed the
right to tax an apportioned share of Mead’s gain on
the sale. In light of the determinative role played by
the unitary business principle, this Court remanded
the case to the Illinois appellate court for a specific
determination as to whether the assets sold were in
fact a part of Mead’s unitary business. Consistent
with Allied-Signal, an affirmative answer to that
question would have caused Mead’s gain on the asset
sale to be constitutionally apportionable to Illinois.
Here, the assets in question are by definition part
of the Godwin Pumps unitary business because they
represent the entirety of that business. Based on
Allied-Signal and MeadWestvaco, the income
generated by their sale is clearly attributable to the
unitary business.
The income is therefore
constitutionally apportionable income and was
reported as such to over 20 States where Godwin
Pumps conducted its business. The fact that Godwin
Pumps was liquidated as part of the transaction does
not change the analysis. See Allied-Signal at 789-790
(subsequent use of proceeds not determinative of
whether income from sale was attributable to seller’s
unitary business).
The Decision Below Misapplied the Unitary
Business Principle in Choosing Allocation
Over Apportionment
The Tax Court below recognized that it was
required to address the proper application of the

17
unitary business principle. Unfortunately, its effort
to do so was completely misguided.
The Tax Court did not undertake to determine
whether the gain from the asset sale was attributable
to the Godwin Pumps unitary business, as this
Court’s decisions in Allied-Signal and MeadWestvaco
clearly require. Instead, the Tax Court relied on its
own prior decision that treated the gain from a sale of
all the assets of a business in a § 338(h)(10)
transaction as constituting “nonoperational income”
(i.e., nonbusiness income) under the New Jersey
taxing statute. (In that case, New Jersey was a
nondomiciliary State seeking apportionment and the
court did not determine whether the business in
question was a unitary business.)15
Considering itself bound by its own precedent in
characterizing the gain from the Godwin Pumps asset
sale as nonbusiness income, the Tax Court concluded
its brief unitary business analysis by stating that
“[t]he Constitution does not require that nonbusiness
income be apportioned among the states.” (App. 40a.)
It therefore held that petitioner’s entire gain was
allocable to New Jersey as the domiciliary State.
In its argument before the Tax Court, New Jersey
quoted the following from this Court’s opinion in
Allied-Signal:
State legislatures have relied upon our
precedents by enacting tax codes which
allocate intangible nonbusiness income to the
domiciliary State. . . . . Were we to adopt New
15

See note 7, supra.

18
Jersey’s theory, we would be required either to
invalidate those statutes or authorize what
would be certain double taxation.
504 U.S. at 785. New Jersey concluded its argument
by claiming that “there is no Constitutional violation
in assigning nonoperational income to a specific
state.” Division Tax Court Brief at 27.
The clear implication of New Jersey’s argument
was that this Court had put its imprimatur on state
statutes “which allocate intangible nonbusiness
income to the domiciliary State.” But unless this
Court actually intended to back away from its own
precedents, which seems unlikely, the only income
earned by a corporation operating a unitary business
that could be potentially allocable to a specific State
would be what might be termed “nonunitary income,”
i.e., income not attributable to the unitary business
being conducted in the taxing State. (Examples
would include the gain realized on the asset sale in
Allied-Signal and the dividends received in
ASARCO.) “Nonunitary income” may or may not fall
within a State’s statutory definition of “nonbusiness
income” in any particular case, but only the
“nonunitary income” of a unitary business is
potentially allocable income.16
Currently, more than half the States have statutes that
prescribe the allocation of certain types of income to the State of
domicile. See, e.g., Cal. Rev. & Tax. § 25125(c) (capital gains and
losses from sales of intangible personal property allocable to
California if commercial domicile); Pa. Stat. Ann., Tit. 72,
§ 7401(3)2.(a)(6)(C) (nonbusiness gains and losses from sales or
other disposition of intangible personal property allocable to
Pennsylvania if commercial domicile); Tenn. Code Ann. § 67-416

19
Had the courts below properly applied the unitary
business principle here, they would have had no
choice but to conclude that the gain on the asset sale
was constitutionally apportionable income, not
income allocable entirely to New Jersey. By reaching
the conclusion they did, they placed New Jersey as the
domiciliary State in direct conflict with the various
nondomiciliary States where the business was
conducted and to which the gain was reported on an
apportioned basis.
It is fundamentally incorrect for a State court to
rely on State statutory definitions to characterize
income the State seeks to tax when a unitary business
is involved. Constitutional principles trump state
definitions in fixing the boundaries for unitary
business taxation.
That point was made absolutely clear by

MeadWestvaco’s reference to a specific portion of this
Court’s opinion in Allied-Signal. At the time AlliedSignal was decided, many States had modeled their
taxing statutes by reference to language contained in
UDITPA (the Uniform Division of Income for Tax
Purposes Act) defining “business income” and
“nonbusiness income.” This Court rejected New
Jersey’s broad-based argument in Allied-Signal that
all income (business or nonbusiness) earned by a
corporation present in the taxing State should be
apportionable. The Court also rejected less sweeping
proposals presented by certain amici curiae and

2011(d) (nonbusiness interest and dividends allocable to
Tennessee if commercial domicile).

20
instead reaffirmed its adherence to the unitary
business principle.

MeadWestvaco pointedly noted that, in reaching
its conclusions, Allied-Signal had “declin[ed] to adopt
UDITPA’s ‘business income’ test as the constitutional
standard for apportionment.” 553 U.S. at 20, n.2.
That statement clearly establishes that there is in
fact a “constitutional standard” for apportionment
when a unitary business is involved, and that State
statutory definitions do not serve as that standard.
The determination of when income is constitutionally
apportionable in such cases is made through proper
application of the unitary business principle.
As also noted in MeadWestvaco, States have
begun to move away from the UDITPA model to enact
taxing statutes such as the one enacted by Illinois in
2004. It provides that the term “business income”
means “all income that may be treated as
apportionable
business
income
under
the
Constitution of the United States.” Ill. Comp. Stat.,
ch. 35, § 5/1501(a)(1);MeadWestvaco at 20-21, n.2.17
Here, petitioner reported the asset sale to Illinois
and other States, apportioned the gain among those
States, and paid the appropriate taxes due. New
Jersey then asserted that it intended to allocate 100%
of the gain to itself. Such an allocation is allowed
under the New Jersey taxing statute only “to the
extent permitted under the Constitution and statutes
17 Other similar statutes include Ind. Code § 6-3-1-20; Iowa Code
§ 422.32(1)(b)(1); Kan. Stat. Ann. § 79-3271(a); N.C. Gen. Stat.
Ann. § 105-130.4(a)(1); Pa. Stat. Ann., Tit. 72, § 7401(3)(2)(a)(1);
W. Va. Code Ann. § 11-24-3a(a)(2).

21
of the United States.” Both the New Jersey statute
and the Illinois statute thus implicate the
Constitution.
The fact that the courts below concluded that
allocation was permissible here reflects a mistaken
belief, perhaps supported by this Court’s comments in
Allied-Signal, that all income statutorily treated as
“nonbusiness income” may be allocated to the
taxpayer’s domiciliary State. That misunderstanding
shows that genuine confusion exists in the State
courts regarding the use of State statutory definitions
in determining the proper tax treatment of unitary
business income.18 This case provides the perfect
opportunity for this Court to clarify the role and scope
of the unitary business principle and thereby prevent
future conflicts of the type that has arisen here.

18 For examples where both allocation and apportionment of the
same income suggest uncertainty regarding the role of the
unitary business principle, see, e.g., Glatfelter Pulpwood Co. v.
Commonwealth, 619 Pa. 243, 61 A.3d 993 (2013) (gain on sale of
Delaware timberland allocated entirely to Delaware under
Delaware statute and also apportioned to Pennsylvania as
timberland was part of taxpayer’s unitary business) and Ex.
parte Kimberly-Clark Corp., 95 So.3d 820 (Ala. Civ. App. 2012),
cert. denied, 568 U.S. 1138 (2013) (gain on sale of facility treated
as “nonbusiness income” under Alabama statute was allocated
entirely to Alabama even though facility was part of taxpayer’s
unitary business and same income was apportioned to States
where the business was conducted).

22
CONSTITUTIONALLY
APPORTIONABLE
INCOME CANNOT ALSO BE ALLOCATED TO
A SINGLE STATE
The Significance of Mobil Oil Corp. v.

Commissioner of Taxation of Vermont

In Mobil Oil Corp. v. Commissioner of Taxation of
Vermont, 445 U.S. 425 (1980), this Court was faced
with the question whether foreign source dividend
income received by a U.S. parent company from its
foreign subsidiaries and affiliates was apportionable
to Vermont. The parent company sought to establish
a constitutional preference for the allocation of 100%
of its dividend income to New York as its commercial
domicile to preclude that income from being
apportioned to Vermont or any other state.
In considering the parent company’s arguments,
this Court first undertook to establish the
relationship between apportionment and the unitary
business principle, stating:
“[T]he linchpin of
apportionability in the field of state income taxation
is the unitary-business principle.” 445 U.S. at 439. In
other words, when income is attributable to a unitary
business, it is apportionable.
To avoid the apportionment of its dividend income
to Vermont, therefore, the parent company had to
show that the dividends were generated through
activities unrelated to the unitary business it was
conducting in Vermont and elsewhere. This Court
determined that the dividends were in fact
attributable to the unitary business.
This Court then considered whether allocation of
the dividend income to the domiciliary State should

23
nevertheless be permitted. Because New York did not
actually tax foreign source dividends at the time, the
question was hypothetical but the Court was willing
to address it.
The Court was mindful of the multiple taxation
that would result from both allocation and
apportionment of the same income. But the fact that
the parent was conducting a unitary business in a
number of States and that the dividend income was
attributable to that business meant that the
domiciliary State should not have the “exclusive”
right to tax such income. Id. at 445-46. The Court
then set forth a basic tenet of unitary business
taxation:
Taxation by apportionment and taxation by
allocation to a single situs are theoretically
incommensurate, and if the latter method is
constitutionally preferred, a tax based on the
former cannot be sustained.
445 U.S. at 444-45.
The Court concluded that it saw “no adequate
justification” for preferring allocation of the dividend
income to the domiciliary State over apportionment.
Because the unitary business was conducted in
various States that conferred benefits and privileges
on the business, those States should be allowed to tax
an apportioned share of the income derived from the
business.
In such cases, apportionment, not
allocation, is “ordinarily the accepted method.” 445
U.S. at 446.
Under Mobil Oil Corp., therefore, apportionment
is the constitutionally preferred method of taxing

24
income attributable to a unitary business. The
possibility of also allocating the same income to a
particular State is precluded because of the resulting
multiple taxation. That is a cardinal principle
established by Mobil Oil Corp.
Petitioner’s Exposure to Double Taxation
Petitioner’s case presents the precise issue that
was considered hypothetically in Mobil Oil Corp. The
gain realized on the sale of all the assets of Godwin
Pumps has been both apportioned to over 20 States
and allocated entirely to New Jersey.
New Jersey’s position is that the Constitution
permits the domiciliary State to allocate all of the
income from the asset sale to itself, even though
petitioner would owe $19 million in new tax to New
Jersey. According to the court below, the onus is on
the taxpayer to convince the nondomiciliary States to
give up their claim to tax an apportioned share of the
same income.
The nondomiciliary States, on the other hand, can
point to Allied-Signal, MeadWestvaco, Container
Corp. and Mobil Oil Corp., and insist that
apportionment of the gain on a sale of all the assets of
a unitary business such as Godwin Pumps is the
constitutionally correct result. It was on that basis
that petitioner initially paid a total of approximately
$19 million in tax to the States where the business
was conducted, including approximately $10 million
to New Jersey.
Either New Jersey is correct or the
nondomiciliary States are correct, but not both. Yet,
unless this Court resolves the conflict that has

25
developed here, petitioner will owe $38 million in tax
instead of $19 million. The suggestion made below
that petitioner should have sought tax refunds from
the nondomiciliary States actually underscores the
need for this Court’s intervention. Unless this Court
states otherwise, the nondomiciliary States are under
no obligation to defer to the domiciliary State in
situations like this. The reverse is also true. Absent
a proper resolution of the issue, the result will
inevitably be double taxation.
The New Jersey decisions below will also very
likely lead to conflicts between States in other
situations if State statutory definitions are allowed to
determine the proper tax treatment of income earned
by a unitary business.19 Statutes such as the one
adopted by Illinois and a number of other States (see
note 17, supra, and accompanying text), which are as
broad (or as narrow) as the Constitution permits, are
certain to put additional pressure on this Court to
provide guidance regarding the proper role and scope
of the unitary business principle in taxing income
earned in interstate commerce.
To prevent future conflicts of this type, the Court
should use this opportunity to reinforce the basic
proposition that apportionment and allocation are
“incommensurate.” If the Mobil Oil Corp. analysis is
allowed to be disregarded, the end result will be
numerous instances of certain double taxation when
assets of a unitary business are sold, something the
Commerce Clause guards against and this Court
should reject.
19

See cases described in footnote 18, supra.

26
TAXING A NONRESIDENT INDIVIDUAL ON
INCOME THAT IS NOT ATTRIBUTABLE TO
THE TAXING STATE VIOLATES THE DUE
PROCESS CLAUSE AND THE COMMERCE
CLAUSE
States May Only Tax Income Earned by
Nonresident Individuals Within the State
This Court recently affirmed that individual
taxpayers are entitled to the same constitutional
protections as corporate taxpayers. Comptroller of
the Treasury of Md. v. Wynne, 575 U.S. 542 (2015).
In addition to the protections of the Due Process
Clause and the Commerce Clause that generally
apply to all businesses and individuals, this Court has
recognized a further layer of protection for
nonresident individuals.
Although it is well
understood that the state of residence may tax an
individual’s entire worldwide income if it so chooses,
with appropriate credits allowed for taxes paid to
other jurisdictions, a nonresident State may only tax
income earned by that individual within that State.
It may not tax income of that individual that was
earned elsewhere.20
In the case of nonresident individuals, this Court
has recognized the narrow scope of a State’s power to
impose a personal income tax based solely on the
source of the income in the State. See Shaffer v.
Carter, 252 U.S. 37 (1920) (upholding Oklahoma tax
J. Hellerstein, W. Hellerstein & J. Swain, State Taxation,
¶ 20.05[1] (3d ed. 2001 & Supp. 2019-3) (“It is well settled that
the states possess the constitutional power to tax nonresidents
on personal income derived from sources within the state.”)

20

27
on nonresidents that applied only to income derived
from nonresident’s property owned within Oklahoma
and business, trade, or profession carried on in
Oklahoma). See also Oklahoma Tax Comm’n v.
Chickasaw Nation, 515 U.S. 450, 463, n.11 (1995)
(“For nonresidents, in contrast, jurisdictions
generally may tax only income earned within the
jurisdiction.”).
New Jersey’s Taxation of Petitioner
Oversteps New Jersey’s Taxing Authority and
Results in Extraterritorial Taxation
Petitioner, as the sole shareholder of an S
corporation, is the actual taxpayer with respect to the
sale of all the assets of Godwin Pumps. New Jersey,
as the corporation’s domiciliary State, has claimed the
right to tax 100% of petitioner’s income from the asset
sale. As a result, New Jersey has subjected petitioner
to individual income taxation on 100% of the gain
realized on that sale, even though petitioner is a
nonresident of New Jersey and is properly subject to
tax by New Jersey only on his New Jersey source
income.
Under petitioner’s application of New Jersey’s
apportionment formula for business income, only 25%
of the income from the asset sale was apportioned to
New Jersey. That is the proper amount to be
considered income earned by petitioner within New
Jersey. As can be seen, however, the income taxed by
New Jersey is about four times the amount that is
properly attributable to New Jersey.
In upholding the allocation to New Jersey of 100%
of the gain from the asset sale, the decisions below

28
ultimately denied petitioner the right of fair
apportionment guaranteed under the Due Process
Clause and the Commerce Clause.
Fair
apportionment requires that the income attributed to
a State is not “out of all appropriate proportion to the
business transacted by the appellant in that State.”
Exxon Corp. v. Wisconsin Dept. of Revenue, 447 U.S.
207, 220 (1980) (quoting Hans Rees’ Sons v. North
Carolina, 283 U.S. 123, 135 (1931)).
Allocating 100% of the gain on the asset sale to
New Jersey is no apportionment at all and by
definition cannot be “fair.” In addition, it subjects
petitioner to multiple taxation, as the other States
where the business was conducted also claim their
fair share of the income generated by the asset sale.
New Jersey failed to recognize petitioner’s
constitutional right to fair apportionment. This Court
should review the case to protect all nonresident
individual taxpayers from such extraterritorial
taxation.

29
CONCLUSION
For the reasons stated above, the petition for a
writ of certiorari should be granted.
Respectfully submitted,
Jerome B. Libin

Counsel of Record

Jeffrey A. Friedman
Eversheds Sutherland (US) LLP
700 Sixth Street, NW, Ste. 700
Washington, DC 20001
(202) 383-0145
jeromelibin@evershedssutherland.com
Open Weaver Banks
Michael J. Hilkin
Eversheds Sutherland (US) LLP
1114 Avenue of the Americas
New York, NY 10036
(212) 389-5000
Counsel for Petitioner
January 2020

APPENDIX
APPENDIX A:

Paz v. Director, Division of
Taxation, 239 N.J. 382 (2019)
(Order denying certification dated
September 20, 2019)

APPENDIX B:

Paz v. Director, Division of
Taxation, 31 N.J. Tax 76 (N.J.
Super., App. Div. 2019) (Opinion
dated January 31, 2019)

APPENDIX C:

Xylem Dewatering Solutions, Inc.,
John M. Paz, et al. v. Director,
Division of Taxation, 30 N.J. Tax 41
(Tax 2017) (Corrected Opinion dated
April 10, 2017)

APPENDIX D:

N.J. Stat. Ann. § 54:10A-6.1 (2010)

1a
APPENDIX A
SUPREME COURT OF NEW JERSEY
C-1050 September Term 2018
082574
John M. Paz,

Plaintiff-Petitioner
v.

ORDER

Director, Division
of Taxation,

Defendant-Respondent.
A petition for certification of the judgment in
A-004452-16 having been submitted to this Court,
and the Court having considered the same;
It is ORDERED that the petition for certification
is denied, with costs; and it is further
ORDERED that the notice of appeal is dismissed.
WITNESS, the Honorable Stuart Rabner, Chief
Justice, at Trenton, this 17th day of September,
2019.

CLERK OF THE SUPREME COURT

2a
APPENDIX B
NOT FOR PUBLICATION WITHOUT THE
APPROVAL OF THE APPELLATE DIVISION
This opinion shall not “constitute precedent or be
binding upon any court.” Although it is posted on the
internet, this opinion is binding only on the parties in
the case and its use in other cases is limited. R. 1:36-3.

SUPERIOR COURT OF NEW JERSEY
APPELLATE DIVISION
DOCKET NO. A-4452-16T4
JOHN M. PAZ,
Plaintiff-Petitioner
v.
DIRECTOR, DIVISION
OF TAXATION,
Defendant-Respondent.

Argued January 14, 2019 – Decided January
31, 2019
Before Judges Sabatino, Haas and Mitterhoff.
(Judge Sabatino concurring).
On appeal from the Tax Court of New Jersey,
Docket No. 0057-2016, whose opinion is
reported at 30 N.J. Tax 41 (Tax 2017).

3a
David J. Shipley argued the cause for appellant
(McCarter & English, LLP, attorneys; David J.
Shipley, of counsel and on the briefs; Aliza
Sherman and Michael A. Guariglia, on the
briefs).
Michael J. Duffy, Deputy Attorney General,
argued the cause for respondent (Gurbir S.
Grewal, Attorney General, attorney; Melissa
H. Raksa, Assistant Attorney General, of
counsel; Michael J. Duffy, on the brief).
PER CURIAM
The May 23, 2017 judgment is affirmed
substantially for the reasons expressed in the Tax
Court judge's April 7, 2017 opinion reported at 30 N.J.
Tax 41 (Tax Ct. 2017).1
We add the following brief comments concerning
the argument raised by plaintiff in Point I.D. of his
appellate brief, where he asserts that the Tax Court
judge “improperly deferred” to the Division of
Taxation’s (the Division's) legal arguments regarding
the construction of the Gross Income Tax statute.
This argument lacks merit.
In the “Standard of Review” section of the opinion,
the judge stated that “[t]he review of this matter
begins with the presumption that determinations
made by the Director [of the Division] are valid[,]” and
later wrote that “[d]eterminations of the Director are
afforded a presumption of correctness[.]” Xylem, 30
N.J. Tax at 50. We agree with appellant that by using
Xylem Dewatering Sols., Inc. v. Director, Div. of Taxation, 30
N.J. Tax 41 (Tax Ct. 2017).
1

4a
the terms “presumption of correctness” and
“presumption of validity,” the judge seems to have
overstated the deference the Tax Court should apply
to the Division’s interpretation and application of tax
statutes following its review of the facts and the law
governing a particular issue. Having canvassed the
judge's entire decision, however, we detect no
instance where the judge failed to fully and fairly
review the record developed by the parties before
properly
making
her
own
independent
determinations on the questions of law involved in
this matter.
In addition, we have applied our own de novo
standard of review in considering all of plaintiff’s
contentions on appeal. Waksal v. Director, Div. of
Taxation, 215 N.J. 224, 232 (2013). Therefore, we
reject plaintiff's argument on this point.
Affirmed.

5a
SABATINO, P.J.A.D., concurring.
I join with my colleagues in affirming the Tax
Court's intricate and impressive decision. In doing so,
I nonetheless must acknowledge that appellant has
raised substantial issues.
The Division of Taxation “sourced” to New Jersey
all of the gains appellant, a Pennsylvania resident,
made from selling his company’s assets that were
spread around the country in more than twenty other
states. The statutory path the Division followed in
reaching that result is not as straight or as clear as,
say, the path of Route One from Elizabeth to Trenton
as marked on a Road Atlas or Google Maps.
It is still not obvious to me why principles under
the Corporate Business Tax (“CBT”), rather than the
Gross Income Tax (“GIT”), dictate the state tax
allocation or assignment of these gains realized by a
Subchapter S corporation in liquidating its business
and its out-of-state assets. It would have been far
better if the statutes had cross-referenced one
another and provided explicit direction on this pivotal
issue. Alas, they did not. So we are left with the
parties’ somewhat meandering explanations of how to
solve the question.
The Division's tax forms and regulations (one of
which is now repealed) lent colorable support to
appellant’s position that these gains would be
allocated among the various other states, rather than
totally assigned to New Jersey as the business's state
of incorporation.

6a
As appellant apparently did not file protective
refund claims in those other states after being notified
of the Division’s assessment, he must endure the
consequences of being subjected to double taxation by
more than one state for the same asset gains.
The Tax Court recognized the legitimacy of
appellant’s confusion by declining to impose penalties
upon him, a determination the Division notably has
not cross-appealed.
That said, I am ultimately persuaded that it is best
here to defer to the expertise of the Division and the
Tax Court on these close and rather arcane issues.
Moreover, counsel have advised us the pertinent
statutes have been amended since the tax years in
question in this case, and those laws now make clear
the proper method of allocation or assignment. So I
join in affirming, having expressed these concerns.

7a
APPENDIX C
NOT FOR PUBLICATION WITHOUT THE
APPROVAL OF THE TAX COURT
COMMITTEE ON OPINIONS
CORRECTED 4/10/2017 - add appearance for plaintiff
---------------------------------------------X
XYLEM DEWATERING
:
SOLUTIONS, INC., JOHN M. :
PAZ, AND XYLEM
:
DEWATERING SOLUTIONS, :
INC., JOHN M. PAZ, JOHN M. :
PAZ 2010 GRANTOR
:
RETAINED ANNUITY TRUST :
FBO JEFFREY PAX, JOHN M. :
PAZ 2010 GRANTOR
:
RETAINED ANNUITY TRUST :
FBO JUDITH PAZ AND JOHN :
M. PAZ 2010 GRANTOR
:
RETAINED ANNUITY TRUST :
FBO SHARON TREECE
:
Plaintiff,
:
v.
:
DIRECTOR, DIVISION OF
:
TAXATION,
:
Defendant. :
---------------------------------------------X

TAX COURT OF NEW
JERSEY
DOCKET NO.
011704-2015
DOCKET NO.
000056-2016
DOCKET NO.
000057-2016

Approved for Publication
In the New Jersey
Tax Court Reports

Decided: April 7, 2017
David J. Shipley and Aliza Sherman for
plaintiff (McCarter & English, LLP,
attorneys).
Michael J. Duffy for defendant
(Christopher S. Porrino, Attorney
General of New Jersey, attorney).

8a
FIAMINGO, J.T.C.
This is the court’s opinion with respect to the
parties’ cross-motions for summary judgment. The
primary issue presented is whether the gain from the
deemed sale of assets of a New Jersey S corporation
under Internal Revenue Code §338(h)(10) is sourced
to New Jersey on the non-resident shareholders’ New
Jersey Non-Resident Gross Income Tax returns.
Plaintiffs’ motion for summary judgment as to the
sourcing of the income on the deemed sale of assets is
denied and defendant’s cross-motion on that issue is
granted. The court finds that the correct method of
sourcing the income on the deemed sale of assets is
with reference to the Corporation Business Tax
statutes. In this regard, the holding of McKesson
Water Prods. Co. v Director, Div. of Taxation, 408 N.J.
Super. 213 (App. Div.), certif. denied, 200 N.J. 506
(2009), controls to allocate the income to New Jersey
as the corporate plaintiff’s domiciliary state.
Defendant’s assessment of gross income tax on the
non-resident shareholders is affirmed.
The court grants plaintiffs’ motion to void the
assessment for additional tax on the corporate
plaintiff based on the income attributable to the Trust
shareholders and denies defendant’s cross-motion on
this issue. The court finds that the retroactive election
filed by the Trust shareholders cured the prior failure
to elect to be consenting shareholders.
Finally, the court grants plaintiffs’ motion to abate
underpayment penalties, finding their position
reasonable in light of the lack of certainty in the
regulations and lack of judicial guidance. In light of

9a
the court’s rulings, the court denies plaintiffs’ demand
for litigation costs.
I. Facts
Xylem Dewatering Solutions, Inc. (formerly
known as Godwin Pumps of America, Inc.) (the
“Corporation”), is a New Jersey corporation that, in
1997 elected to be taxed as an S corporation for both
Federal and New Jersey tax purposes. Until February
2010, John Paz, a nonresident of New Jersey, was its
sole shareholder (“Paz”). On or about February 1,
2010, Paz transferred 49 of the 350 issued and
outstanding shares of the Corporation to three
Grantor Retained Annuity Trusts (the “GRATs”)
established by him as grantor. Paz and the GRATs
will be collectively referred to herein as the
“Shareholders.”1
On or about August 3, 2010, the Shareholders sold
all of the shares of the Corporation. The parties
elected to apply Internal Revenue Code (“I.R.C.”)
§338(h)(10) to the transaction. Because of the
election, for federal income tax purposes the sale of
stock by the Shareholders of the Corporation was
disregarded and the transaction was treated as a sale
of all of the assets of the Corporation followed
immediately by the liquidation of the Corporation.
See I.R.C. §338.
The Corporation filed a short year U.S. Income
Tax Return for an S Corporation, Form 1120S, for the
period ending August 3, 2010, reporting income from
1 The Corporation, Paz and the GRATS will collectively be
referred to as plaintiffs.

10a
operations for that period, as well as the gain from the
deemed sale of its assets. The gain from the sale of
assets aggregated $357,290,215. Of this amount,
$48,842,984 was attributed to the sale of tangible
assets and $308,447,231 was attributed to the sale of
goodwill.
The Corporation also filed a New Jersey S
Corporation Business Tax (“CBT”) return for the
period ending August 3, 2010. On that return, the
Corporation reported a total of $113,385,758 to its
shareholders as “S income/loss allocated to New
Jersey” on the Schedule K-1 (Shareholder’s Share of
Income/Loss) to the return while reporting total
income of $370,356,782. Paz’s New Jersey nonresident GIT return for calendar year 2010 reflected
S corporation income in the amount of $113,417,512
from New Jersey sources.2
The New Jersey Division of Taxation (“Division”)
audited the Corporation’s CBT returns for the years
2009 through 2011. As a result of that audit, proposed
adjustment workpapers were issued to Paz on
September 8, 2014, and to the Corporation on
November 6, 2014. With respect to the Corporation,
the workpapers proposed: 1) that net long term gain
in the amount of $308,447,231 was assignable to New
Jersey, thus increasing the amount of income from
the Corporation sourced to New Jersey;3 and 2) an
2 John Paz’s individual share was $99,549,991 and the GRATs’
shares was an aggregate of $13,835,767.

Plaintiff maintains that only the deemed gain on goodwill was
allocated to New Jersey. Defendant (“Director”) maintains that
the entirety of the deemed gain on sale was allocated to New
Jersey. The Workpapers clearly allocate $308,447,231 to New
3

11a
assessment against the Corporation of $3,580,461 in
GIT on the income allocable to the GRATs as nonconsenting S corporation shareholders.4
The adjustment to the amount of income from the
Corporation sourced to New Jersey increased the New
Jersey sourced income on Paz’s non-resident GIT
return. The proposed workpapers issued to Paz
proposed additional GIT of $19,162,818, plus interest
and penalties of more than $5,800,000.
On January 8, 2015 the Corporation filed a
“Retroactive S Election Application” Form CBT-2553R, on which the GRATs evidenced their consent to
New Jersey’s jurisdiction to tax and collect tax. That
form was returned to the Corporation by the Division
on or about March 30, 2015, with a hand written note
which provided, “This corporation has been an S-corp
since 1997.? Please call 609 [XXX XXXX] S Corp
Unit.” Thereafter, on May 7, 2015, the Division issued
a notice rejecting the Retroactive S Election
Application, stating that “[t]he [Corporation]
submitted a timely CBT-2553 (New Jersey S
Corporation election) starting in 1997 and has
maintained such status” and “[t]here is no provision
in the law or regulations allowing a shareholder to
retroactively consent to taxation in this State.”
In or about April 2015, the Corporation filed an
amended CBT return on which it 1) “sourced” the gain
on the deemed sale of fixed assets based on the
Jersey as “Nonoperational gains - Section 338(h)(10)” and do not
appear to differentiate between fixed assets and goodwill.
4 Additional adjustments were made which are not pertinent to
this motion.

12a
location of the assets; and 2) “sourced” the gain on the
deemed sale of goodwill using the three-year average
of its allocation factors for the 2007, 2008, and 2009
tax years. Although the return was filed by the
Corporation, the amended return states “[t]he gain
from the [Corporation’s] deemed asset sale is sourced
to New Jersey under the gross income tax rules
applicable to ‘net gains or income from the disposition
of property.’” (emphasis added.) The Corporation
issued amended Schedule K-1’s to its shareholders
allocating $90,018,927 of the entire deemed gain on
sale of $357,290,215 to New Jersey.
The change in the sourcing of the corporate
income on the deemed sale of assets affected the GIT
calculated to be due from Paz on the original New
Jersey GIT non-resident return filed by him, and in
April 2015, he filed an amended return requesting a
refund of $1,741,684.5
On December 16, 2015, the Division issued a
Notice of Assessment against the Corporation
demanding $5,116,396.39, representing the tax due
from the GRATs as “non-consenting” S corporation
shareholders in the amount of $3,580,810, plus
penalties and interest of $1,535,586. On December 24,
2015, the Division issued a Notice of Tax Due to Paz
of
$26,792,003.92,
consisting
of
GIT
of
$19,166,036.18, penalties of $958,301.81, and interest
of $6,667,665.84. The additional tax was assessed
primarily as a result of the characterization of the
5 All income allocated to the GRATs was included on both of the
GIT returns filed by Paz since the GRATs constituted grantor
trusts of which he was grantor.

13a
$308,447,231 gain on the I.R.C. §338(h)(1) deemed
asset sale as non-operational income of the
Corporation allocable to New Jersey under the CBT
Act, and includable in the Shareholders’ non-resident
GIT calculations as New Jersey source income. The
Corporation and the GRATs filed a complaint in the
Tax Court on August 5, 2015, contesting the
Director’s denial of the Corporation’s Retroactive S
Election Application. On January 6, 2016, Paz filed a
complaint in Tax Court appealing the Director’s
December 24, 2015 Notice of Tax Due and the
Corporation filed a complaint contesting the
Director’s December 16, 2015 Notice of Assessment
against it.6
The Corporation, Paz, and the GRATs jointly filed
a motion for summary judgment in these matters. The
Director filed a cross-motion for summary judgment.
Both motions were argued before this court on
December 16, 2016.
II.

Legal Issues and Analysis

A. Summary Judgment
Summary judgment should be granted where “the
pleadings, depositions, answers to interrogatories and
admissions on file, together with the affidavits, if any,
show there is no genuine issue as to any material fact
challenged and the moving party is entitled to a
judgment or order as a matter of law.” R. 4:46-2(c). In
Brill v. Guardian Life Ins. Co., 142 N.J. 520, 523
6 A fourth complaint was filed by the Corporation in March, 2016
contesting a Notice of Assessment issued to the Corporation, but
that complaint is not the subject of the current motion for
summary judgment.

14a
(1995), our Supreme Court established the standard
for summary judgment as follows:
[W]hen deciding a motion for summary
judgment
under
Rule
4:462,
the
determination whether there exists a genuine
issue with respect to a material fact challenged
requires the motion judge to consider whether
the competent evidential materials presented,
when viewed in the light most favorable to the
non-moving party in consideration of the
applicable evidentiary standard, are sufficient
to permit a rational factfinder to resolve the
alleged disputed issue in favor of the nonmoving party.
“The express import of the Brill decision was to
‘encourage trial courts not to refrain from granting
summary judgment when the proper circumstances
present themselves.’” Township of Howell v.
Monmouth Cty Bd. of Taxation, 18 N.J. Tax 149, 153
(Tax 1999) (quoting Brill, supra, 142 N.J. at 541).
The parties contend and the court concludes that
there is no genuine dispute with respect to any of the
material facts in this matter. Resolution of these
matters by summary judgment is appropriate.
B. Standard of Review
The review of this matter begins with the
presumption that determinations made by the
Director are valid. See Campo Jersey, Inc. v. Director,
Div. of Taxation, 390 N.J. Super. 366, 383 (App. Div.),
certif. denied, 190 N.J. 395 (2007); L&L Oil Service,
Inc. v. Director, Div. of Taxation, 340 N.J. Super. 173,
183 (App. Div. 2001); Atlantic City Transp. Co. v.

15a
Director, Div. of Taxation, 12 N.J. 130, 146 (1953).
“New Jersey Courts generally defer to the
interpretation that an agency gives to a statute
[when] that agency is charged with enforc[ement.]”
Koch v. Director, Div. of Taxation, 157 N.J. 1, 8 (1999)
(citing Smith v. Director, Div. of Taxation 108 N.J. 19,
25 (1987)). Determinations by the Director are
afforded a presumption of correctness because
“[c]ourts have recognized the Director’s expertise in
the highly specialized and technical area of taxation.”
Aetna Burglar & Fire Alarm Co. v. Director, Div. of
Taxation, 16 N.J. Tax 584, 589 (Tax 1997) (citing
Metromedia, Inc. v. Director, Div. of Taxation, 97 N.J.
313, 327 (1984)). The Supreme Court has directed
courts to accord “great respect” to the Director’s
application of tax statutes, “so long as it is not plainly
unreasonable.” Metromedia, supra, 97 N.J. at 327.
However, where the interpretation of an
administrative agency is plainly at odds with a
statute, that interpretation will not be upheld. See
Oberhand v. Director, Div. of Taxation, 193 N.J. 558,
568 (2008) (citing GE Solid State v. Director, Div. of
Taxation, 132 N.J. 298, 306 (1993)).
C. Discussion
1. General Principles of the CBT Act
The CBT Act requires that all non-exempt
domestic and foreign corporations pay an annual
franchise tax for the privilege of having or exercising
its corporate franchise in New Jersey, or for the
privilege of deriving receipts from sources within the
State, or for the privilege of engaging in contacts
within the state, or for the privilege of doing business,
employing capital or owning capital or property, or

16a
maintaining an office in New Jersey. N.J.S.A. 54:10A2. In general, corporations which are subject to tax in
New Jersey are taxed on that proportion of their
“entire net income” allocable to New Jersey. N.J.S.A.
54:10A-5(c)(1).
Corporations electing S corporation status are
subjected to a different tax scheme under both federal
and New Jersey tax laws. Under federal tax law, an S
corporation’s income, losses, deductions, and credits
pass through to its shareholders, based on their
individual percentage ownership in the corporation.
See I.R.C. §1366. The shareholders, in turn, report
their pro rata share of the income and losses on their
personal income tax returns in accordance with
federal tax laws, and are assessed taxes at their
individual tax rates. Id. Technically, under New
Jersey tax law, the entire net income of an electing S
corporation is subject to CBT. N.J.S.A. 54:10A-5(c)(2).
For tax years ending on or after July 1, 2007,
however, “no rate of tax” is imposed on an S
corporation’s entire net income.7 N.J.S.A. 54:10A5(c)(2)(ii). Further, an electing S corporation is not
subject to the GIT. N.J.S.A. 54A:5-9. The income,
dividends, and gains of an S corporation, however, are
allocated to its shareholders and subjected to GIT on
the shareholders’ personal income tax return whether
or not actually distributed. Id. Thus, although an S
corporation’s entire net income is not subject to the CBT
7 All S Corporations are however subject to the CBT minimum
tax obligation, N.J.S.A. 54:10A-5(e), and New Jersey S
corporations are also subject to the regular CBT on its New
Jersey entire net income that is subject to federal income
taxation. N.J.S.A. 54:10A-5(c)(3).

17a
or the GIT directly, all of its income is taxed at the
shareholder level.
2. S Corporation Election
The CBT Act defines an “S corporation” as “a
corporation included in the definition of an ‘S
corporation’ pursuant to [I.R.C. §1361].” N.J.S.A.
54:10A-4(o). A “New Jersey S corporation” is a
“corporation that is an S corporation; which has made
a valid election pursuant to [N.J.S.A. 54:10A-5.22];
and which has been an S corporation continuously
since the effective date of the valid election made
pursuant to [N.J.S.A. 54:10A-5.22].” N.J.S.A. 54:10A4(p).
In order for a corporation to elect to be a New
Jersey S corporation, the corporation and its
shareholders on the date of the election (the “initial
shareholders”) must consent to the election and the
jurisdictional requirements of becoming a New Jersey
S corporation. N.J.S.A. 54:10A-5.22. Specifically, the
initial shareholders must consent to: the State’s right
to tax and collect the tax on the shareholder’s income;
the right of the State to tax and collect the tax,
regardless of a change of the initial shareholder’s
residency; and the State’s right to collect the tax
directly from the corporation should a shareholder
other than an initial shareholders fail to consent to
the State’s jurisdiction to tax and collect the tax.
N.J.S.A. 54:10A-5.22(b).
With respect to a shareholder who is not an initial
shareholder, an S corporation must either deliver the
consent of such shareholder to the State’s
jurisdictional requirements, or make payments to the

18a
Director of the amount of tax on the subsequent
shareholder’s pro rata share of the S corporation’s
income calculated at the highest rate of tax under the
GIT. N.J.S.A. 54:10A-5.23(a)-(c). The Director may
require that the tax estimated to be due be withheld
from any distribution made to a nonconsenting
shareholder. N.J.S.A. 54:10A-5.23(c). Where a
shareholder who is not an initial shareholder fails to
deliver a consent and objects to the jurisdiction of the
State to withhold payments of the tax due, the State
has the right to collect the tax from the corporation.
N.J.S.A. 54:10A-5.23(d).
Procedurally, “[a] Federal S corporation must file
a New Jersey Subchapter S Election form (CBT-2553)
to elect treatment as a New Jersey Subchapter S
corporation . . . or to report a change in shareholders.”
N.J.A.C. 18:7-20.1(c). Here, the Corporation filed its
election for 1997 and has been treated as a New
Jersey S corporation since. The Director does not
contest the status of the Corporation as a New Jersey
S corporation. The Director maintains that the
GRATs are not initial shareholders and their consent
to be taxed was required to be filed once they became
shareholders. See N.J.A.C. 18:7-20.1(c)(1)(vii)(1) (if
an initial shareholder transfers stock to a “grantor
trust of which the shareholder is the grantor, a new
CBT-2553 shall be signed and filed by the Trustee in
that capacity.”). Because the consents were not timely
filed, the Director maintains that the State has “the
right and jurisdiction to collect a tax . . . directly from
the corporation equal to the pro rata share of the S
corporation income allocated to this State, . . . of the
nonconsenting shareholder times the maximum tax

19a
bracket rate provided under [the GIT].” N.J.S.A.
54:10A-5.23(d).
Plaintiffs argue that the GRATs are “grantor
trusts” and all of the income otherwise allocable to
such trusts is includable on Paz’s personal return and
was so included for the year in question. See I.R.C.
§671. Thus, according to plaintiffs, it was unnecessary
for the GRATs to consent to be taxed because Paz
remained the sole shareholder of the Corporation
even after the transfer of shares. Plaintiffs maintain
that N.J.A.C. 18:7-20.1(c)(1)(vii)(1), requiring that a
new CBT-2553 be signed and filed by the Trustee of a
grantor trust that becomes a shareholder, is invalid
because it is contrary to the technical “income tax
definition” of the word “shareholder” and because it is
inconsistent with the GIT treatment of a grantor trust
as a disregarded entity.
Plaintiffs rely heavily on the treatment of S
corporations under the Internal Revenue Code in
making their argument. The court finds no
contradiction between the definition of an S
corporation in I.R.C. §1361(a)(1) and the requirement
in the regulations that the trustee of a grantor trust
file a Form 2553 upon becoming a shareholder. In fact
I.R.C. §1361 supports the Director’s position that a
grantor trust is an eligible “shareholder” under the
federal statutes. See I.R.C. §1361(c)(2)(A)(1) (allowing
as an eligible shareholder “[a] trust all of which is
treated [under I.R.C. §671] as owned by an individual
who is a citizen or resident of the United States.”)
“That the Legislature may delegate to an
administrative agency the authority to promulgate
rules and regulations interpreting and implementing

20a
a statute is beyond peradventure.” T.H. v. Div. of
Developmental Disabilities, 189 N.J. 478, 490 (2007).
“Agency regulations are promulgated to aid in the
practical application of a statute to achieve the
legislative purpose.” Regent Corp. of Union, Inc. v.
Director, Div. of Taxation, 27 N.J. Tax 577, 598 (Tax
2014).
New Jersey courts generally defer to the
interpretation that an agency gives to a statute
that agency is charged with enforcing. Smith v.
Director, Div. of Taxation, 108 N.J. 19, 25, 527
A. 2d 843 (1987). We have recognized the
Director's expertise, particularly in specialized
and complex areas of the Act. Metromedia, Inc.
v. Director, Div. of Taxation, 97 N.J. 313, 327,
478 A. 2d 742 (1984) (stating that Director's
interpretation will prevail “as long as it is not
plainly
unreasonable”).
However,
this
deference is “not total, as the courts remain the
‘final authorities’ on issues of statutory
construction and are not obliged to ‘stamp’
their
approval
of
the
administrative
interpretation.” New Jersey Guild of Hearing
Aid Dispensers v. Long, 75 N.J. 544, 575, 384
A.2d 795 (1978).
[Koch, supra 157 N.J. at 8.]
The Director’s construction of the operative law,
“which is not plainly unreasonable and with which
the Legislature has not interfered, is entitled to
prevail”. Aetna Burglar & Fire Alarm, supra, 16 N.J.
Tax at 589 (citing Metromedia, supra, 87 N.J. at 327).
The party challenging the regulation has the burden
of proving the regulation is invalid. New Jersey State

21a
League of Municipalities v. Department of Cmty.
Affairs, 158 N.J. 211, 222 (1999). Here, the Director’s
regulation providing that a grantor trust be treated
as a shareholder which is not an initial shareholder,
and requiring that a form 2553 signed by the Trustee
be filed, is consistent with the plain language and
probable intent of N.J.S.A. 54:10A-5.22(b). The
regulation is upheld.
The regulations, however, allow for the filing of a
Retroactive S Election form where an S corporation
authorized to do business in New Jersey, which is
registered with the Division, and which has filed CBT
returns, has failed to file a timely New Jersey S
corporation election. See N.J.A.C. 18:7-20.3(a). The
Statement accompanying the proposal to N.J.A.C.
18:7-20.3 provides, in part:
Since there are occasions when taxpayers may
fail to make [a New Jersey S election] due to
inadvertence, the procedure is designed to
assist honest taxpayers with a procedure that
is less draconian in its consequences than
requiring the corporate taxpayer to pay tax,
penalty and interest on the difference between
the S corporation rates and the C corporation
rates, requiring the difference between the S
corporation rates and the C corporation rates,
requiring the shareholders to file amended NJ1040 returns to get refunds, and deal with the
potential disparity in the statute of limitations
between corporation business tax and gross
income tax.
[39 N.J.R. 3730(a) (Sept. 4, 2007).]

22a
The Director argues that the purpose of the
retroactive election is to benefit only corporations
which have filed S corporation returns (NJ-CBT100S) but have failed to timely file New Jersey S
corporation election. A strictly literal reading of
N.J.A.C. 18:7-20.3 might support the Director’s
position. There is nothing in the regulation which
specifically permits the retroactive filing of consents
for non-initial shareholders. The instructions to the
Retroactive S Election Application, Form CBT-2553R, belie a literal interpretation. Those instructions
anticipate the filing of a retroactive election by a
corporation which has already applied for S
corporation
status
and
received
approval.
Specifically, Instruction 1 to Form CBT-2553-R
states:
This form is to be used by a currently
authorized corporation electing New Jersey S
corporation status effective retroactively to a
prior return period. Submit a copy of the
original CBT-2553 if previously approved. If
the taxpayer does not currently have New
Jersey C Corporation status, an original CBT2553 must also be submitted.
[Id. (emphasis added).]
Furthermore, Part IV of Form CBT 2553-R
indicates that the consenting shareholders consent to
New Jersey’s “retroactive right and jurisdiction to tax
and collect the tax on each shareholder’s S
corporation income . . . .” Thus, it appears to be clearly
anticipated that corporations which have received
prior approval of the New Jersey S Election be

23a
permitted to file retroactive elections and to permit
shareholders to retroactively consent to be taxed.
The Director further argues that, if the court finds
that the retroactive election applies to permit an
untimely consent by the GRATs, relief should not be
granted, because
[a]ll shareholders have not filed appropriate
tax returns and paid tax in full when due as if
the New Jersey S corporation election request
had been previously approved, and the
taxpayers have not reported the appropriate S
corporation income on those returns.
[N.J.A.C. 18:7-20.3(c)(4).]
The Director maintains that since the
shareholders did not source the income in the manner
determined by the Division and thus “have not
reported the appropriate S corporation income” on
their returns, relief cannot be granted. This argument
cannot be sustained. The Corporation allocated all of
what it reported as its income to its various
shareholders, including the GRATs. The income
allocated to the GRATs by the Corporation was
included in the return of Paz, as the grantor of the
GRATs. The Division reviewed the Corporation’s
return and made a determination that the
Corporation and its shareholders have protested. To
adopt the Director’s interpretation would mean that
any time a taxpayer contests the action of the Director
without first paying the tax alleged to be due, that
taxpayer cannot be afforded the remedy of a
retroactive election. The court finds such an
interpretation to have a chilling effect on the ability

24a
of a corporation and its shareholders to legitimately
contest an assessment. See United Parcel Service
General Servs Co. v. Director, Div. of Taxation, 220
N.J. 90, 94 (2014)(taxpayer which timely files tax
returns, pays all reported tax liabilities and is found
to be liable for additional tax following an audit, has
not failed to pay tax).
Finally, the Director argues that the assessment
against the Corporation for the taxes due on the
GRATs’ share of the income was proper, because as of
the 2010 tax year the GRATs had not filed a consent.
Therefore, the Corporation was required to
[m]ake payments to the Director of the Division
of Taxation on behalf of each nonconsenting
shareholder in an amount equal to the
shareholder’s pro rata share of S corporation
income allocated to this State, as defined
pursuant to . . . [N.J.S.A.].54A:5-10 [], reflected
on the corporation’s return for the accounting
or privilege period, multiplied by the maximum
tax bracket rate provided under N.J.S.[A.]
54A:2-1 in effect at the end of the accounting or
privilege period. The payments shall be made
no later than the time for filing of the return
for the accounting or privilege period.
[N.J.S.A. 54:10A-5.23(c).]
Thus, the Director argues, since the Corporation
neither had the executed consents from the GRATs at
the appropriate time nor did it pay over the tax as
required, it cannot be granted relief.
Once again, the Director argues against the
retroactivity permitted by his own regulations. What

25a
is the sense of permitting retroactive relief if the
taxpayer must first be required to act and be assessed
as if the retroactive election were not permitted, only
to have the retroactivity thereafter apply?
Furthermore by filing the Form CBT-2553-R, the
GRATs have consented to the retroactive taxation of
the income allocable to them, and the tax due on the
amounts allocable to them as reported on the
corporate return was in fact paid, albeit by Paz.
The court finds that the failure of the GRATs to
file the necessary consents was cured by the filing of
the retroactive S Election. Any potential harm to the
State has been obviated. While the amount of the
income required to be included in the Shareholders’
returns has yet to be finally determined, at the time
of the filing of the return, the tax due from all of the
Shareholders was paid by Paz.
3.

General Principles of the GIT Act

Under the GIT, the net income earned by an S
corporation from the operation of its business is
passed through to its shareholders and taxed in a
single category as the “[n]et pro rata share of S
corporation income.” N.J.S.A. 54A:5-1(p); Miller v.
Director, Div. of Taxation, 352 N.J. Super. 98, 104105 (App. Div. 2002), rev’g and remanding 19 N.J. Tax
522 (Tax 2001). However, where a corporation sells
virtually all of its assets and distributes the proceeds
to its shareholders in complete liquidation of the
corporation, the gain on the actual sale of corporate
assets is not taxed as S corporation income. Instead,
the two transactions are treated “as if they were one
transaction involving a sale of stock to a third party,
with the tax being calculated precisely in accordance

26a
with the provisions of N.J.S.A. 54A:5-1(c) specifically
governing Subchapter S corporations.” Id. at 108.
This treatment is required in order to avoid a tax on
return of capital. Ibid.
In a corporate liquidation subject to the I.R.C.
§338(h)(10) election, there is no actual sale of
corporate assets. Instead, the shareholders sell their
shares in the corporation to a third party and elect to
treat the transaction as if the corporation sold all of
its assets and liquidated. For federal tax purposes,
the shareholders “take their pro rata share of the
deemed sale tax consequences into account under
section 1366 and increase or decrease their basis in
the selling corporation’s stock under section 1367.”
Treas. Reg. §1.338(h)(1)-1(d)(5)(i).
In Mandelbaum v. Director, Div. of Taxation, 20
N.J. Tax 141 (Tax 2002), the court considered the tax
consequences under the GIT of a sale of stock subject
to an I.R.C. §338(h)(10) election and held that “the
income passing through to [the shareholder] as a
result of the deemed sale of [the corporation’s] assets
is taxable under N.J.S.A. 54A:5-1(c).” Id. at 153. The
distinction between the characterization of the
income on the deemed sale of assets as being from
“disposition of property” and not “S corporation
income” for GIT purposes forms the basis for the
plaintiffs’ challenge to the Director’s sourcing of
income in this matter.
GIT is imposed on all New Jersey Gross Income
earned by any taxpayer. N.J.S.A. 54A:2- 1. “New
Jersey Gross income” consists of sixteen specified
categories of income, including “net gains or income
from the disposition of property” and “net pro rata

27a
share of S corporation income.” N.J.S.A. 54A:5-1(c), 51(p). GIT is imposed on non-residents based on a
percentage of the GIT imposed on a resident, the
numerator of which is the non-resident taxpayer’s
income from sources within New Jersey and the
denominator of which is the non-resident taxpayer’s
gross income calculated as if the taxpayer was a
resident of the state. N.J.S.A. 54A:2-1.1. Thus, the
source of a non-resident’s income is an integral factor
in the determination of the amount of GIT imposed.
Both parties concur that gain from the deemed
asset sale under I.R.C. §338(h)(10) is taxable as “net
gains or income from disposition of property” and not
as “S Corporation income” under the GIT. See
N.J.A.C. 18:35-1.5(k)(2)(ii). Mandelbaum, supra, 20
N.J. Tax 141. The crux of the disagreement between
the parties is the manner in which the income arising
from the deemed sale of the corporation’s assets is
sourced for the purposes of the GIT imposed on the
non-resident shareholders.
4.

Sourcing of Income
a.

Application of CBT concepts

“S corporation income” allocated to New Jersey
constitutes income from sources within the state for a
non-resident taxpayer. N.J.S.A. 54A:5-8(a)(6). S
corporation income allocated to New Jersey means
“that portion of the S corporation income that is
allocated to this State by the allocation factor of the
corporation for the [taxable year in question]
pursuant to [N.J.S.A. 54:10A-6 through 54:10A-10].”
N.J.S.A. 54A:5-10. Thus, in computing the amount of
“S corporation income” allocable to a non-resident for

28a
GIT purposes, the statute specifically references the
CBT allocation factors of the S corporation.
“Net gains or income from the disposition of
property,” however, are sourced to New Jersey “to the
extent it is earned, received or acquired from sources
within this State” based on rules specifically related
to the type of property. N.J.S.A. 54A:5-8(a)(1)-(4).
Thus, plaintiffs argue, the allocation factor applicable
to S corporation income under the CBT is irrelevant
in determining the sourcing of gains arising from an
I.R.C.
§338(h)(10)
deemed
sale
of
assets
notwithstanding the fact that those deemed gains
were earned at the corporate level.
This dispute has its roots in the decisions of
Miller, supra 352 N.J. Super. 98 and Mandelbaum,
supra, 20 N.J. Tax 141. In Miller, there was an actual
sale of assets by an electing S corporation followed by
a complete liquidation of the corporation. The
Director treated the transactions as they occurred – a
sale of assets by the corporation, resulting in S
corporation income to the shareholders, and the
complete liquidation of the corporation, resulting in
income from the disposition of property.
The court held that while the Director’s position
was a literal application of the GIT, the
characterization of the gain on the sale of the
corporate assets as S corporation income unavoidably
resulted in an unacceptable tax on the return of
capital, a result inconsistent with legislative intent.
Miller, supra, 352 N.J. Super. at 105. See also Koch,
supra, 157 N.J. at 8-14. “[S]ince the literal statutory
words are incompatible with the overall legislative
purpose not to tax a return on capital, the only

29a
solution that appears to us to make sense, without
doing violence to the [GIT] Act, is to treat these
transactions as a sale of corporate stock.” Miller,
supra 352 N.J. Super. at 107.
In Mandelbaum, Judge Kuskin was confronted
with the sale of S corporation stock in a transaction
involving an election under I.R.C. §338(h)(10) similar
to that before this court. At the time, neither the GIT
Act nor the regulations issued thereunder provided
for the GIT treatment of the I.R.C. §338(h)(10)
deemed sale of assets. Despite that, the Director
argued that the deemed sale of assets should be
recognized as a taxable event resulting in S
corporation income to the shareholder under N.J.S.A.
54A:5-1(p), followed by a complete liquidation of the
corporation, resulting in a capital gain or loss to the
selling shareholder under N.J.S.A. 54A:5-1(c). Judge
Kuskin held that “in the absence of valid regulations
under the GIT Act, the Director may not import and
apply federal tax principles from I.R.C. §338(h)(10)
and assess gross income tax in accordance with those
principles.” Mandelbaum, supra, 20 N.J. Tax at 152.
Agreeing with Judge Small’s analysis in Miller,
supra, he found that income not generated in the
regular course of business of the corporation should
be taxed under N.J.S.A. 54A:5-1(c) and not as regular
business income under subsection (p). Ibid.
On September 5, 2006, the Director proposed
amendments to GIT regulations applicable to the gain
on sale on the disposition of property in connection
with the complete liquidation of sole proprietorships
and partnerships. See N.J.A.C. 18:35-1.1, 1.3; 38
N.J.R. 3502(a) (Sept. 5, 2006). Simultaneously, new

30a
regulations addressing the sale of assets in connection
with a liquidation of an S Corporation were proposed.
See N.J.A.C. 18:35-1.5; 38 N.J.R. 3502(a), supra.
Specifically, the Director noted:
The New Jersey Tax Court opinions in Miller v.
Director, Division of Taxation, 19 N.J. Tax 522
(2001), reversed 352 N.J.Super. 98, 799 A.2d
660 (App. Div. 2002) and Mandelbaum v.
Director, Division of Taxation, 20 N.J. Tax 141
(2002) held that income of a shareholder
resulting from the sale of corporate assets is
taxable as the net gain from the disposition of
property. More specifically, the Courts
explained that to the extent that a partnership
or subchapter S corporation has income outside
of its ordinary trade or business, that income
retains its character as gains from the
disposition of property when it is passed
through to the partners or subchapter S
shareholders, and the taxpayer can deduct his
or her basis in the stock from the passedthrough proceeds from the sale in calculating
his or her income tax liability.
[38 N.J.R. 3502(a), supra.]
Thus, N.J.A.C. 18:35-1.1(c)(5), relating to sole
proprietorships, provides that “[g]ain or loss from the
sale or disposition of assets employed in a trade or
business as a result of a complete liquidation of the
business must be reported as described in N.J.S.A.
54A:5-1.c, net gains or income from the disposition of
property.” Similarly, N.J.A.C. 18:35-1.3(2)(i), relating
to partnerships, provides “[t]he partnership’s gain or

31a
loss from the sale or disposition of its assets as a
result of a complete liquidation are to be separately
reported as net gains or income from disposition of
property in accordance with N.J.S.A. 54A:5-1.c.” Both
regulations contain sourcing rules for business
activities carried on both inside and outside of New
Jersey, providing that (a) the gain or loss from the
sale of real and tangible assets located in New Jersey
is sourced to New Jersey; (b) the gain or loss from the
sale of real and tangible assets located outside New
Jersey is sourced to the other jurisdiction; (c) the gain
or loss from the sale of motor vehicle equipment is
sourced to the state where the vehicle is registered,
unless the vehicle was used predominantly in another
state; and (d) the gain or loss from the sale of
intangibles is allocated using the average of the
business allocations for the last three years. N.J.A.C.
18:35-1.1(e)(5), 1.3(d)(5). Notably, the sourcing of the
income under the regulations relates to the use of the
property by the unincorporated business entity in its
business.
Consistent with the amendments applicable to
sole proprietorships and partnerships, the new S
corporation regulations governing the “Complete
Liquidation of an S Corporation” provide, in part, “if
the adopted Federal plan of liquidation requires the S
corporation, and ultimately the shareholders(s), to
recognize a gain or loss from the deemed sale of its
assets, the gain or loss from the deemed sale is
reported by the shareholder(s) for gross income tax
purposes.” N.J.A.C. 18:35-1.5(k)(1).
Additionally, the new regulations provide,

32a
The income or loss from an S corporation’s sale
or deemed sale, exchange, distribution or other
disposition of all of its assets when in
conjunction with the sale, exchange or
disposition of all of the S corporation’s stock
must be reported by the shareholder in the
category “net gains or income for the
disposition of property.”
[N.J.A.C. 18:35-1.5(k)(2)(ii).]
Unlike
the
regulations
applicable
to
unincorporated business entities the regulations
addressing the complete liquidation of S corporations
did not precisely address sourcing rules. The
examples under the new regulations demonstrate
only the application of the regulations to a New Jersey
S corporation electing I.R.C. §338(h)(10) treatment
“which allocates 100 percent to New Jersey.” N.J.A.C.
18:35-1.5(o), Example 4. While not specifically
referencing any other sourcing rules, the regulation
provides that in the case of a non-resident, that
portion of the liquidating distribution representing
the gain on sale of the corporation’s assets is New
Jersey Income. Id.
In April 2007, however, the Director proposed an
amendment to CBT regulation N.J.A.C. 18:7-8.12,
adding subsection (g), as follows:
Unless the taxpayer can show by clear and
convincing evidence that such a methodology
does not properly reflect the activity or
business
of
the
taxpayer
reasonably
attributable to the State, receipts from the sale
of tangible and intangible assets in a

33a
transaction pursuant to I.R.C. 338(h)(10) are
allocated and sourced to New Jersey by
multiplying the gain by a three-year average of
the allocation factors used by target
corporation for its three tax return periods
immediately prior to the sale.
[39 N.J.R. 1243(a) (April 2, 2007).]
The proposal was intended to provide a “more
accurate methodology than sourcing such receipts to
New Jersey by reference to the sales fraction only that
would reflect customer locations.” Id. It is thus clear
that the Director intended that the sourcing rules set
forth in N.J.A.C. 18:7-8.12 be utilized in deemed asset
sales under I.R.C. §338(h)(10). The regulation does
not distinguish between the treatment of S
corporations and C corporations.
Just prior to the proposal this court decided
McKesson Water Prods. Co. v Director, Div. of
Taxation, 23 N.J. Tax 449 (Tax 2007), aff’d, 408 N.J.
Super 213 (App. Div.), certif. denied, 200 N.J. 506
(2009), in which Judge Kuskin held that “the income
resulting from [the corporate taxpayer’s] deemed sale
of assets was nonoperational income under N.J.S.A.
54:10A-6.1(a).8 As a result, the income . . . must be
assigned to . . . the location of [the target’s] principal
place of business” 23 N.J. Tax at 465. Applying that
holding to the facts of this case, the gain on sale of the
corporation’s deemed asset sale would be assigned to
8 Judge Kuskin’s decision in McKesson was initially issued as a
bench decision March 9, 2007 and was amplified by a Formal
Opinion issued August 13, 2007 and published at 23 N.J. Tax
449.

34a
New Jersey and would constitute New Jersey income
to Paz and the GRATs. The Director argues,
persuasively, that McKesson conclusively established
that gains from an I.R.C. §338(h)(10) deemed sale are
nonoperational income assignable to the domiciliary
state of the corporation and effectively invalidated
subsection (g) of N.J.A.C. 18:7-8.12.
Plaintiffs contend, however, there is no statutory
cross reference to the CBT for determining the portion
of net gains or income from the disposition of property
under N.J.S.A. 54A:5-1(c) that should be sourced to
New Jersey and that the CBT principles apply only to
source S corporation income under N.J.S.A. 54A:51(p). Thus, according to plaintiff, the principles of
McKesson are inapplicable and the methodology of
the regulations for sourcing the gain on the sale of
assets disposed of in the complete liquidation of the
businesses of sole proprietorships and partnerships
should instead control.
The income at issue arose from the sale of assets
utilized by the Corporation in its business. But for the
fact that these assets were sold (or deemed to be sold)
in anticipation of the complete liquidation of the
Corporation, it is clear that the sourcing rules of the
CBT would apply. The Miller court did not reach its
decision by way of comparing the transaction with
what would occur if the corporation had been an
unincorporated business entity. Miller, supra, 352
N.J. Super. 98. The court reached its decision by
finding that the legislative intent behind the GIT Act
was not to tax capital. Id. In sourcing the gain from
the deemed sale of assets to New Jersey the Director’s
determination does not run afoul of the court’s

35a
reasoning in Miller not to tax a return of capital. The
sourcing of gain was not a factor in Miller.
Furthermore, the court, albeit in dicta, referenced
the rules applicable to S corporations in suggesting an
alternative interpretation of the GIT and proposed
resolution thereunder. Id. at 101. It would seem,
therefore, that the Miller court implicitly recognized
the efficacy of applying S corporation concepts under
the CBT to the transactions under review in that
matter.
Although Judge Kuskin in Mandelbaum, supra,
considered the similarity of the principles of taxation
applicable to partnerships and S corporations, that
comparison related to the characterization of income
as being generated in the regular course of business.
[T]he taxation principals applicable to
partnerships and S corporations are not
identical, but, for the purposes of determining
what constitutes taxable partnership income
under category k of N.J.S.A. 54A:5-1 and what
constitutes subchapter S corporation income
under category p of the same statute, the same
principles apply. Under those principles, only
income generated in the regular course of
business is includable. Other income retains its
character and is subject to tax if it fits within
one of the other categories of taxable income set
forth in N.J.S.A. 54A:5-1.
[20 N.J. Tax at 154.]
This court does not find that the seemingly
disparate sourcing treatment of sole proprietors and
partners is inapposite to the result achieved here.

36a
While the pass-through tax treatment of S
corporation shareholders is similar to that of sole
proprietors and partners in partnerships, that
treatment is not identical. See e.g. Sidman v.
Director, Div. of Taxation, 18 N.J. Tax 636 (Tax
2000)(“Nowhere in the legislation (or any regulation)
does it state the subchapter S corporations are to be
treated as sole proprietors, unlike the regulations
about partnerships and sole proprietorships.”), aff’d,
19 N.J. Tax 484 (App. Div. ), certif. denied 170 N.J.
387 (2001).
To support their position that the sourcing rules
set forth in N.J.A.C. 18:35-1.1 and 1.3 should apply to
S corporations, plaintiffs point to the language in 38
N.J.R. 3502(a), supra, that, “[t]he adoption of the new
rules and amendments is expected to have a
beneficial social impact by clarifying the proper
procedures for reporting income received from the
sale of business stock in a complete liquidation. This
treatment is consistent for sole proprietors, partners,
and S corporation shareholders”. It is clear that the
referenced language refers solely to the application of
the rulings in Miller and Mandelbaum, that the net
income from the disposition of assets in a complete
liquidation of a business entity representing a return
of capital not be subject to tax. Nothing within Miller
or Mandelbaum, supports plaintiffs’ position that the
CBT sourcing rules should not be applied.
The court concludes that applying the CBT
sourcing rules to the deemed gain on sale of assets
under I.R.C. §338(h)(10) is wholly consistent with the
taxation of such income as net gains from the
disposition of property under the GIT.

37a
b. Operational vs. Non-Operational Income
The court in McKesson, supra, reviewed a
transaction substantially similar to that before this
court and concluded that the gain on the deemed sale
was non-operational income under N.J.S.A. 54:10A6.1, and was therefore assignable to the taxpayer’s
principal place of business. In McKesson, the result of
the transaction was a cessation of the business
operations by the target corporation with a complete
liquidation and distribution to the shareholders of the
proceeds of sale. 23 N.J. Tax at 465.
McKesson is binding on this court. See Badische
(BASF) Corp. v. Township of Kearny, 17 N.J. Tax 594,
599 (App. Div. 1998) (“[a] trial judge has the
responsibility to comply with the pronouncements of
the Appellate Division.”). Therefore, unless this
matter is either factually distinguishable or there is
subsequent binding new law, this court must follow
McKesson. There is no discernible difference between
the transaction in McKesson and that before this
court, and thus the court concludes that factually
McKesson is not distinguishable. As noted above, the
court does not find that the decisions in Miller, supra,
or Mandelbaum, supra, addressed the issue of the
sourcing of gain presented here.
The court concludes that McKesson controls so
that the income from the deemed sale of assets by the
corporation constitutes non-operational income. The
court further concludes that such income, having been
deemed to be earned by the corporation, must be
sourced with reference to the CBT and is assignable
to New Jersey as the principal place of business of the
corporation under N.J.S.A. 54:10A-6.1.

38a
Plaintiffs next argue that under the plain
language of N.J.S.A. 54:10A-6.1, only the taxpayer
can classify income as non-operational.9 The court
rejects this argument. Clearly, the initial sentence of
N.J.S.A. 54:10A-6.1 by defining “operational income”
excludes from that definition such income that is not
within the definition. The second sentence provides
an opportunity for the taxpayer to demonstrate that
income is nonoperational and sets forth the standard
of “clear and convincing evidence.” Plaintiffs have not
made any demonstration which would require this
court to conclude that the income could be classified
as anything but nonoperational income.
Finally, plaintiffs argue that sourcing the entire
gain from the deemed asset sale is violative of the fair
apportionment requirement of the Due Process
Clause and the Commerce Clause of the United States
Constitution because sourcing the entire gain to New
Jersey is out of all proportion to the business
9

N.J.S.A. 54:10A-6.1 provides:

“Operational income” subject to allocation to New Jersey means
income from tangible and intangible property if the acquisition,
management, and disposition of the property constitute integral
parts of the taxpayer’s regular trade or business operations and
includes investment income serving an operational function.
Income that a taxpayer demonstrates with clear and convincing
evidence is not operational income is classified as nonoperational
income, and the nonoperational income of taxpayers is not
subject to allocation but shall be specifically assigned; provided,
that 100% of the nonoperational income of a taxpayer that has
its principal place from which the trade or business of the
taxpayer is directed or managed in this State shall be specifically
assigned to this State to the extent permitted under the
Constitution and statutes of the United States.

39a
activities conducted in the state by the corporation.
Because the McKesson court resolved the issue before
them on purely statutory grounds, they did not reach
the constitutional issues implicated in the unitary
business principle. 408 N.J. Super. at 221.
Plaintiffs’ argument is misplaced. As noted by
Judge Kuskin, the definitions of operational and
nonoperational income in N.J.S.A. 54:10A-6.1(a) have
their origin in the UDITPA definitions of business
and nonbusiness income. McKesson, supra, 23 N.J.
Tax at 456. “Under [the Uniform Division of Income
for Tax Purposes Act] and similar statutes, all
business income [of a unitary business] is apportioned
and all nonbusiness income is allocated.” Jerome R.
Hellerstein and Walter Hellerstein, State Taxation,
§9.05 (3rd ed. 1998).
“The Constitution places limits on a State’s power
to tax value earned outside of its borders.” AlliedSignal, Inc. v. Director, Div. of Taxation, 504 U.S. 768,
784, 112 S. Ct. 2251, 2261, 119 L.Ed. 2d 535, 550
(1992). “Under both the Due Process and the
Commerce Clauses the Constitution, a State may not,
when imposing an income-based tax, ‘tax value
earned outside its borders.’” Container Corp. of Am. v.
Franchise Tax Bd., 463 U.S. 159, 103 S. Ct. 2993, 77
L.Ed. 2d 545 (1983). Thus, the business income of a
unitary business must be apportioned among all the
jurisdictions in which it conducts business. See
Mead/Westvaco Corp. v. Illinois Dep’t of Revenue, 553
U.S. 16, 24-25, 128 S.Ct. 1498, 1505, 170 L.Ed. 2d 404,
412 (2008). “The Commerce Clause forbids the States
to levy taxes that discriminate against interstate
commerce or that burden it by subjecting activities to

40a
multiple or unfairly apportioned taxation.” Id. at 24.
The gain on the sale of the corporation’s assets,
however, constituted nonoperational/nonbusiness
income and was not “earned” as business income
beyond the borders of New Jersey. The Constitution
does not require that nonbusiness income be
apportioned among the states. See Ala. Dep’t of
Revenue v. Kimberly-Clark Corp., 95 So. 3d. 820, 826
(Ala. Civ. App. 2012).
The income at issue arose from the deemed sale of
assets in connection with a complete liquidation of the
corporation. That income is clearly nonoperational
income under McKesson, by which precedent this
court is bound. There is no constitutional requirement
that such income be apportioned and it is
appropriately allocated to the domiciliary state, New
Jersey.
5. Abatement of Penalties
The Director imposed underpayment penalties to
the tax due from both Paz and the corporation on the
GRATs’ share of the income from the Corporation
pursuant to N.J.S.A. 54:49-4. That section provides,
in pertinent part, that “[u]nless any part of any
underpayment of tax required to be shown on a return
or report is shown to be due to reasonable cause, there
shall be added to the tax an amount equal to 5% of the
underpayment.” The Director is authorized to waive
the penalty, in whole or in part, “if the failure to pay
any tax when due . . . is explained to the satisfaction
of the Director.” N.J.A.C. 18:2-2.7(a).
As noted above, the tax due from the Corporation
for the income tax payable by the GRATs was abated

41a
by the retroactive consents filed by the GRATs. Thus,
to that extent the underpayment is eliminated and no
penalty should be imposed.
The court has found that Paz incorrectly sourced
the income taxable to the shareholders on the
liquidation of the corporation. Under the facts of this
case, the court finds that the failure to pay tax as a
result of the incorrect sourcing of income was
reasonable. The court reaches this decision in light
lack of direct guidance as to the sourcing of income in
the N.J.A.C. 18:35-1.5, the Director’s regulation at
N.J.A.C. 18:7-8.12(g) apportioning the gain on an
I.R.C. §338(h)(10) deemed sale, and the seemingly
disparate treatment of sole proprietorships and
partnerships as set forth in N.J.A.C. 18:35-1.1 and
1.3. The lack of clear direction from the Division and
the lack of judicial guidance on the issue lead to the
result that the plaintiffs’ position regarding the
sourcing of gain was reasonable, although ultimately
incorrect. Thus, the penalty should be abated. See
United Parcel Service, supra 220 N.J. at 93.
6. Litigation Costs
In light of the court’s decision, plaintiffs’ demand
for litigation costs is rejected.
II. Conclusion
For the foregoing reasons, the court affirms the
assessment of tax against Paz for the tax on the gain
from the deemed sale of assets of the Corporation;
rejects the assessment against the Corporation for the
GIT imposed on the GRATs; abates the penalty
imposed on Paz for the incorrect sourcing of income;
and denies plaintiffs’ request for litigation costs. In

42a
accordance with R. 8:9-3
computations pursuant
hereunder showing the
underpayment within 45
opinion.

the parties shall submit
to the court’s decision
correct amount of the
days of the date of this

43a
APPENDIX D
N.J.S.A. 54:10A-6.1
54:10A-6.1. Operational and nonoperational income
Effective: July 2, 2002 to June 29, 2014
a. “Operational income” subject to allocation to
New Jersey means income from tangible and
intangible property if the acquisition, management,
and disposition of the property constitute integral
parts of the taxpayer’s regular trade or business
operations and includes investment income serving
an operational function. Income that a taxpayer
demonstrates with clear and convincing evidence is
not operational income is classified as nonoperational
income, and the nonoperational income of taxpayers
is not subject to allocation but shall be specifically
assigned; provided, that 100% of the nonoperational
income of a taxpayer that has its principal place from
which the trade or business of the taxpayer is directed
or managed in this State shall be specifically assigned
to this State to the extent permitted under the
Constitution and statutes of the United States.
b. Corporate expenses related to nonoperational
income are not deductible in determining entire net
income. Notwithstanding the provisions of R.S.54:496 or any other law to the contrary:
(1) if in prior privilege periods property had been
classified as operational property, and later is
demonstrated to have been nonoperational property
and is subsequently disposed of, all expenses, without
limitation, deducted for prior privilege periods related
to such nonoperational property shall be added back

44a
and recaptured as income in the period of disposition
of such property;
(2) if in prior privilege periods income had been
classified as serving an operational function, and
later is demonstrated not to have been serving an
operational function, all expenses, without limitation,
deducted in prior privilege periods related to such
income not serving an operational function shall be
added back and recaptured as income; and
(3) the denominators of the fractions used to
determine the allocation factor pursuant to section 6
of P.L.1945, c. 162 (C.54:10A-6), for privilege periods
for which redeterminations are required pursuant to
paragraphs (1) and (2) of this subsection shall be
redetermined to exclude the amounts, if any, relating
to the nonoperational property or the nonoperational
c. The Director of the Division of Taxation shall
prescribe such forms for administration and adopt
such administrative rules as the director deems
necessary for the implementation of this section.

